<html>
<title> - OVERSIGHT OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 116-391]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-391
 
                              OVERSIGHT OF
                  THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                              ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-849 PDF            WASHINGTON : 2021         
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 20, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                                WITNESS

Wheeler, Hon. Andrew, Administrator, U.S. Environmental 
  Protection Agency..............................................    15
    Prepared statement...........................................    17
    Responses to additional questions from:
        Senator Barrasso.........................................    29
        Senator Capito...........................................    31
        Senator Cramer...........................................    32
        Senator Braun............................................    37
    Response to an additional question from Senator Wicker.......    41
    Responses to additional questions from:
        Senator Ernst............................................    41
        Senator Carper...........................................    45
        Senator Cardin...........................................    79
        Senator Sanders..........................................    80
        Senator Whitehouse.......................................    91
        Senator Merkley..........................................    95
        Senator Gillibrand.......................................    98
        Senator Booker...........................................   102
        Senator Markey...........................................   105

                          ADDITIONAL MATERIAL

A Pandemic of Pollution. U.S. Senate Committee on Environment and 
  Public Works Staff Report, May 2020............................     5
The Fossil Fuel-Virus Nexus? Not. The Wall Street Journal, May 4, 
  2020...........................................................    12
Web address for Fine particulate matter and COVID-19 mortality in 
  the United States. Harvard University, Website updated November 
  4, 2020........................................................   123
Links between air pollution and COVID-19 in England. 
  Environmental Pollution, posted April 28, 2020.................   124
Air pollution and case fatality of SARS in the People's Republic 
  of China: An ecologic study. Environmental Health, published 
  November 20, 2003..............................................   151
Can atmospheric pollution be considered a co-factor in extremely 
  high level of SARS-CoV-2 lethality in Northern Italy? 
  Environmental Pollution, available online April 4, 2020........   156
Face Masks and Crowd Control: The Race to Make Your Subway Ride 
  Safer. The New York Times, May 3, 2020.........................   160
Letter to G. Scott Pruitt, Administrator, U.S. Environmental 
  Protection Agency, from the Alliance of Automobile 
  Manufacturers, February 21, 2017...............................   173
Letter to Hon. Donald J. Trump, President of the United States, 
  from Aston Martin Lagonda Ltd., et al, June 6, 2019............   185
State Air Trends & Successes, 2020 Edition. The Association of 
  Air Pollution Control Agencies.................................   199
Red Tape Making Americans Sick, U.S. Senate Committee on 
  Environment and Public Works, Minority Subcommittee Staff 
  Report, Subcommittee on Clean Air and Nuclear Safety, March 
  2012...........................................................   209
Letter to Senators Barrasso and Carper from the American Farm 
  Bureau Federation, May 19, 2020................................   224
Letter to Senators Barrasso and Carper from the Waters Advocacy 
  Coalition, May 19, 2020........................................   225
Letter to Hon. Andrew Wheeler, Administrator, U.S. Environmental 
  Protection Agency, from the Basin Electric Power Cooperative, 
  May 8, 2020....................................................   228
Letter to Senators Barrasso and Carper from the Hearth, Patio & 
  Barbecue Association, May 19, 2020.............................   229
COVID-19 PM 2.5. A national study on long-term exposure to air 
  pollution and COVID-19 mortality in the United States. https://
  projects.iq.harvard.edu, updated April 24, 2020................   260


                             OVERSIGHT OF 
                  THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                        WEDNESDAY, MAY 20, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Sullivan, Boozman, Wicker, Ernst, Cardin, 
Whitehouse, Merkley, Gillibrand, Markey, Duckworth, and Van 
Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    I would like to welcome the Administrator of the 
Environmental Protection Agency, Hon. Andrew Wheeler, to the 
Committee today.
    Today's hearing is an opportunity to hear about the EPA's 
good work and a chance for Committee members to ask questions.
    The Environmental Protection Agency is tasked with 
protecting the air we breathe, the water we drink, and the 
communities where our families live.
    During the COVID-19 pandemic, the agency has worked hard to 
provide the public with updated information on which 
disinfectants and cleaning products can be safely used to kill 
the virus. In addition, the EPA has made grant funding 
available to the States and the tribes to help low income and 
minority communities address the coronavirus.
    EPA has also provided thousands of pieces of personal 
protective equipment to aid emergency and health professionals 
during the pandemic, and EPA issued timely guidance to States 
and businesses about how it will enforce environmental laws 
when social distancing affects normal activities. I look 
forward to hearing more about the agency's work to combat the 
virus during today's hearing.
    In addition to its work on the virus, the agency has 
pursued policies to protect the environment while supporting 
the economy. EPA has replaced punishing regulations that harm 
the coal industry, farmers and ranchers, and many small 
businesses in my home State of Wyoming and across the country.
    In 2017, the Department of Commerce asked manufacturers 
which Federal agency generated the greatest regulatory burdens. 
The answer was clear: It was the EPA. At the top of the list 
were the Waters of the U.S. Rule and the Clean Air Act Rules.
    This year, the Trump administration replaced the Obama 
administration's illegal Waters of the U.S. Rule. Under the old 
rule, ponds, puddles, and prairie potholes would have fallen 
under Washington's control. The replacement of the Waters of 
the U.S. Rule, known as the Navigable Waters Protection Rule, 
is supported by States, as well as farmers, ranchers, and small 
businesses.
    Last year, the EPA finalized the Affordable Clean Energy 
Rule as a common sense replacement to the overreaching Clean 
Power Plan. The new rule follows the law and will enable the 
U.S. to continue to lower emissions.
    Under the current Administration, EPA has saved over $5 
billion in regulatory costs. Last year alone, the EPA saved 
Americans an estimated $1.5 billion through the deregulatory 
actions.
    In the challenging economic times ahead, reducing excessive 
regulatory burdens to promote and reinvigorate our economy has 
never been more important. At the same time, the EPA has 
focused its mission and refocused its mission on the basics of 
environmental protection and lowering pollution levels. This 
important work protects our Nation's air, land, and water.
    EPA financing has allowed billions of dollars of upgrades 
to our aging water infrastructure to move forward. These 
investments ensure Americans have clean water for drinking and 
for recreation.
    Over the past 3 years, the EPA has helped finance more than 
$8 billion worth of infrastructure projects under the Water 
Infrastructure Finance and Innovation Act Program alone. In his 
written testimony today, Administrator Wheeler estimates these 
projects can create more than 16,000 jobs.
    EPA has also made real progress in cleaning up some of our 
Nation's most contaminated sites. Last year, EPA completed its 
work on all or part of 27 Superfund sites on the National 
Priorities List. That is the most since 2007.
    Under EPA's Brownfield and Land Revitalization Program, the 
agency has focused on cleaning up land in economically 
distressed communities, particularly those located in 
opportunity zones. The Tax Cuts and Jobs Act created 
opportunity zones as a way to spur economic development in the 
communities that need it the most.
    I am pleased the EPA is taking actions to carry out its 
core mission of protecting public health and the environment 
while supporting economic growth. We can and we must do both.
    I would now like to turn to Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you very much, Mr. Chairman.
    I would like to begin my remarks this morning by welcoming 
Administrator Wheeler, who is somewhere about a hundred yards 
away from us in this enormous hearing room. I think I can 
recognize him by that beard and a full head of hair.
    Andrew, welcome, and thank you for joining us today.
    These are not just sobering times. For a lot of Americans 
and our neighbors around the world, they are scary times, 
really scary. For a lot of people, it is a time that is largely 
devoid of hope.
    I was asked in an interview earlier this week what provides 
me with inspiration in times like these, and I responded 
without hesitation: It is the selfless service of extraordinary 
people. The selfless service of extraordinary people, people 
that we oftentimes think of as ordinary folks, but who, in 
times like these, become extraordinary.
    I just want to start off, Mr. Chairman and colleagues, by 
talking a little bit about some of them. Thus far, at least 14 
Capitol Police officers have tested positive for COVID-19. Some 
Members of Congress, their families, and their staff have as 
well.
    These beautiful buildings here on Capitol Hill were opened 
this morning by people who serve our country by keeping us 
safe, by keeping the lights on, cleaning the office spaces we 
occupy, making the food that sustains us, or working behind the 
scenes to make events like this hearing possible.
    None of these unseen public servants are guaranteed to work 
in a stunning room like the one which allows all of us to 
remain at least 60 feet apart, it seems, with face masks on and 
hand sanitizers at the ready. But many of these unsung public 
heroes have young children; they have no option for school or 
daycare for the children when duty calls, and few if any of 
them have the option to telework.
    The Senators are here; the staff that helps keep these 
buildings open, operating, and safe must be here as well. They 
serve our country, each in their own way, just as we do. They 
deserve our gratitude and our protection in turn.
    So on behalf of all 100 United States Senators from every 
corner of this country, I just want to start off this morning 
with a sincere and heartfelt thank you from all of us. Thank 
you.
    Now turning to today's hearing, let me again welcome Andrew 
Wheeler. Ironically, when we last welcomed him before the 
Committee, we were in the midst of a Government shutdown, as I 
am sure you will recall.
    Today, we are in the midst of a pandemic unlike anything we 
have seen in 100 years. During normal times, we would have been 
holding a budget hearing months ago, shortly after the proposed 
budget was released.
    For those who may not recall, the proposed Federal budget 
for fiscal year 2021 cut EPA's budget by over 25 percent, a 
reduction of $2.5 billion from last year's enacted 
appropriation.
    Funding the EPA at that level would severely hamper 
programs that are important to protect water quality and 
drinking water, programs that are intended during the pandemic 
to ensure people have clean water to wash their hands with and 
to properly sanitize.
    In a time when this pandemic is costing literally tens of 
millions of people their jobs, that budget would leave the EPA 
with its smallest work force in 30 years, while funding the 
agency at a level, in real dollars, not seen since the 1980s.
    While the EPA is not on the front lines of responding to 
the COVID-19 pandemic, the agency does have a vital role to 
play, and it requires funding that is commensurate with that 
role. EPA is charged with evaluating disinfectants used to keep 
us safe. It is charged with undertaking environmental research 
that can help us better understand the way this disease and 
others like it are impacted by weather, by climate, and by 
pollution.
    Perhaps most important of all, the agency is charged with 
protecting everyone in this country from drinking unsafe water 
and breathing unsafe air. When it comes to that important 
mission, regrettably, too often the agency has done the 
opposite of what it should have been doing during this 
pandemic.
    Earlier today, I released a report entitled Pandemic of 
Pollution. Mr. Chairman, I ask unanimous consent to submit it 
for the record if I could.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
 
   
    Senator Carper. Thank you, sir.
    This report paints a grim picture. It describes the clear 
links that have been found between climate change and the 
likelihood of future pandemics. It also describes the clear 
evidence that other coronaviruses like SARS are more likely to 
cause death in those who are also exposed to air pollution.
    This report also documents some of the emerging scientific 
evidence that COVID-19 is more likely to kill people whose pre-
existing conditions are worsened by breathing more heavily 
polluted air. We already know that lower income and minority 
communities who face more air and water pollution than others 
are also suffering the most from COVID-19.
    Here in this city, this national capital, for example, 
African Americans account for almost 80 percent of COVID-19 
related deaths, while making up less than half of the 
population. Yet despite this, the EPA has not spent these past 
months standing up an aggressive research program to better 
understand the nexus between the pandemic and pollution, or 
strengthening the environmental justice programs to examine the 
clear need to respond forcefully to front line communities. 
Instead, the EPA has spent much of this year proposing and 
finalizing rules that a lot of us believe will cause even more 
air pollution in the future.
    Let me provide a couple of examples of what I am talking 
about. The EPA's own analysis shows that its rollback of the 
Clean Car Rule will actually kill more people prematurely 
because of air pollution than the number of people whose lives 
the rule purports to save. In fact, the Environmental Defense 
Fund estimates that there will be more than 18,000 premature 
deaths caused by this rollback alone. That is more than half 
the people who live in Dover, Delaware, the capital of my 
State.
    Here is another example. The elimination of the legal 
underpinnings of the Mercury and Air Toxics Standard could 
ultimately result in thousands of additional premature deaths.
    Here is a third example. According to EPA's Scientific 
Advisory Committee that the agency has disbanded, the failure 
to strengthen the standards for particulate matter could kill 
as many as 12,500 people prematurely every year.
    To add insult to injury, the EPA is actually using the 
COVID-19 pandemic now to justify its proposal to allow the 
continued sale of antiquated wood stoves. Why is that 
important? Well, residential wood stoves in this country emit 
five times more soot pollution than the U.S. petroleum 
refineries in this country, cement manufacturers in this 
country, and pulp and paper plants combined. Five times more, 
think about that.
    The new report I have just released earlier today and asked 
to be entered for the record found that the rollbacks the EPA 
has taken just since March 1st of this year could kill 
literally tens of thousands of people prematurely each year. 
These rollbacks are, in fact, a pandemic of pollution rather 
than attacking, the Environmental Protection Agency is actually 
contributing to, all in the middle of an actual pandemic. 
Heaven help us.
    Last night, colleagues, EPA issued a press release in 
response to the report that I have been talking about, calling 
it ``misleading'' and ``political propaganda.'' Yet in that 
release, the EPA failed to provide a single mention of air 
pollution. It did not even attempt to address or rebut my 
report's fundamental conclusion, that the dangerous air 
pollution rollbacks that EPA has pursued in just the past 2 
months will kill thousands of people, and that the potential 
link between air pollution and COVID-19 could make our ongoing 
battle against this pandemic all the more difficult and even 
more deadly. For thousands of people, it could even make this 
heartbreaking reality even more tragic.
    This is not about politics; this is about people, and EPA 
owes the American people some answers. We hope we get those 
this morning.
    Thank you all very much.
    Senator Barrasso. Thank you very much, Senator Carper.
    I would point out that the minority paper released today is 
based on a non-peer reviewed Harvard study connecting COVID-19 
mortality to particulate matter pollution. The Wall Street 
Journal published an editorial observing that ``the study is 
riddled with flaws,'' and as two epidemiologists quoted in the 
Wall Street Journal piece stated, ``When we look closely at the 
research, we saw so many shortcomings that we were not 
convinced of the results.''
    So I ask unanimous consent to enter this editorial into the 
record, and without objection, it is done so.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Senator Barrasso. We will now hear from our witness, Hon. 
Andrew Wheeler, Administrator of the Environmental Protection 
Agency.
    I want to remind you that your full, written testimony will 
be made part of the official hearing record, so please try to 
keep your comments to 5 minutes so that we will have plenty of 
time for questions. We look forward to the testimony.
    Thank you, Mr. Administrator.

     STATEMENT OF HON. ANDREW WHEELER, ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Wheeler. Thank you.
    Good morning, Chairman Barrasso, Ranking Member Carper, and 
members of the Committee. I appreciate the opportunity to 
submit the statement regarding the EPA's proposed fiscal year 
2021 budget request, which supports the goals and objectives of 
EPA's 5 year strategic plan.
    The year 2020 marks the 50th anniversary of EPA. As a 
country, we have made remarkable strides over that time 
ensuring a clean environment for all of our citizens.
    That said, 2020 has been a difficult year for all Americans 
as we deal with the COVID-19 pandemic. The agency has done a 
number of things in the past several months to help fight the 
outbreak.
    The EPA approves the disinfectants that Americans use to 
safeguard their families, homes, and businesses. The agency 
started off on March 5th with 60 EPA approved disinfectants 
against COVID-19. At this time, we have approved over 400 
products due to the hard work of our career scientists.
    EPA requested that State Governors consider all water and 
wastewater workers as essential workers when enacting 
restrictions to curb COVID-19, and we have also started a 
number of research activities related to COVID-19. Through the 
amazing work of our IT office, we have more than doubled our 
capacity to telework within 1 week by increasing our VPN 
capacity from 7,500 to 17,500 lines.
    Our list of accomplishments in the past several months will 
be considered impressive, even under normal circumstances. 
Since the middle of March, the EPA has published its final Safe 
Vehicles Rule.
    We have published our MATS Mercury Rule, proposed retaining 
the current Obama NAAQS standard for particulate matter, 
published a Waters of the U.S. Replacement Rule, sent a cost-
benefit rule to OMB for review, awarded brownfields grants to 
over 150 deserving communities across the country, ordered $20 
million in grants for the Great Lakes Restoration Initiative, 
and sent $1 million in grants to help environmental justice 
communities address COVID-19 concerns from low income and 
minority communities.
    We have also not let this deter our efforts to hire, and we 
have added 335 new employees during this time. Another 200 will 
be added by the end of June. Our agency's mission to protect 
human health and the environment is critical and needs to move 
forward, regardless of the circumstances. EPA employees have 
risen to the test of carrying out their duties during this 
challenging time, and I applaud all of them.
    Our budget request includes over $1 billion for the 
Superfund Account to continue progress to revitalize lands. EPA 
in the last fiscal year deleted all or part of 27 Superfund 
sites from the National Priorities List, which is the largest 
number of deletions in a single year since 2001.
    Under President Trump, EPA has finalized 60 deregulatory 
actions, saving Americans nearly $7 billion in regulatory 
costs. I want to be clear that we are not achieving this at the 
expense of environmental laws enacted by Congress. In fact, 
some of this important work is modernizing decades old 
regulations and bringing them up to date.
    It is worth remembering that in the 1970s, more than 40 
percent of our Nation's drinking water systems failed to meet 
even the most basic health standards. Today, over 93 percent of 
the community water systems meet all health based standards all 
the time, and our air today is over 74 percent cleaner than it 
was in 1970, with all six criteria air pollutants having 
decreased during this Administration.
    But there is more to do. Our Nation's children are 
especially vulnerable to the health impacts of unsafe drinking 
water, especially lead exposure. The EPA is coordinating with 
our Federal partners to reduce children's exposure to lead 
through the new Lead Exposure Reduction Initiative included in 
this budget request, an additional $45 million to build on 
current efforts that will help decrease lead exposure on 
multiple fronts.
    The budget request also includes new resources for EPA to 
aggressively implement the PFAS Action Plan, the EPA's first 
multi-program National Research and Risk Communication Plan to 
address an emerging class of chemicals of concern. Never been 
done in our 50 year history.
    The budget continues WIFIA loan support, which is producing 
tremendous results for the American people. Loans in total over 
$4.2 billion have helped finance over $8 billion for water 
infrastructure projects, creating 16,000 jobs.
    EPA continues to meet the major statutory deadlines of the 
new TSCA Law. EPA is working its way through the final risk 
evaluation for the first 10 chemicals, and last December we 
identified the next 20 high priority chemicals.
    As we approach EPA's 50th anniversary in December, we can 
proudly say that Americans now have significantly cleaner air, 
land, and water than in the past. The Trump administration is 
proving that environmental protection and economic health can 
go hand in hand. This message of hope for our environment, both 
today and in the future, is as important as ever during this 
challenging time.
    We can be proud of the example EPA career employees and 
managers have set in the past several months, and be comforted 
by the fact that great progress in human and environmental 
health is being shared with all Americans everywhere, 
regardless of where they live.
    Thank you.
    [The prepared statement of Mr. Wheeler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    Senator Barrasso. Well, thank you so very much for your 
testimony.
    Since we have members who are here in the room, and we have 
members who are watching from their offices and participating 
that way, the Ranking Member and I have agreed that to allow 
members a better sense of when they will be able to ask a 
question, that we are going to dispense with the early bird 
rule and go strictly by seniority on the Committee today, so 
just for members who are watching from their offices.
    Let me start with the questions, Administrator Wheeler. I 
am going to applaud so much of work the EPA has done during 
your tenure, but you know I am still deeply troubled with the 
record of the EPA on the renewable fuel standard, especially in 
regard to small refineries.
    The EPA's failure to challenge the standing claims of the 
biofuel producers in the Tenth Circuit to me is inexcusable. 
The EPA's failure to seek a rehearing on the recent Tenth 
Circuit ruling was inexplicable. Unless the EPA identifies ways 
to provide similar levels of relief to small refineries, the 
consequences of the decisions that have been made by the EPA 
are going to be devastating for communities in Wyoming and 
elsewhere.
    Can I ask what steps, if any, are you taking to help small 
refineries obtain hardship relief in light of the Tenth 
Circuit's ruling, and will you ensure that the EPA gives any 
petitions for hardship relief in prior years prompt 
consideration?
    Mr. Wheeler. First, to the last part of your question on 
request for waivers from previous years. When and as we receive 
any request for prior year waivers, we will be sending those 
straight to the Department of Energy for their review, 
according to our policies and procedures that we have outlined, 
and for the Department of Energy, that they then supply to us 
the information as far as whether or not there is an economic 
hardship or waiver.
    As soon as we receive any request from any small refinery 
for prior years, we will report those over to DOE as soon as we 
get them. We have, and I have talked personally, with a number 
of small refiners all over the country, including I think every 
small refinery in Wyoming, and we are working with them to see 
what we can do to help them during this time.
    This was a double hit to the program, not just with the 
Tenth Circuit decision, but also the decrease in vehicle miles 
traveled by Americans right now. We have extraordinary 
circumstances this year, and we are looking to see what relief 
we can provide everyone.
    The ethanol industry is also hurting as well, the small 
refiners in particular, because of the Tenth Circuit decision 
and because of the amount of gasoline that is currently being 
sold and used is a particular hardship to refiners.
    Senator Barrasso. Will you ensure the EPA promptly 
reconsiders petitions which it wrongfully denied prior to the 
Sinclair decision?
    Mr. Wheeler. Are you referring to the previous years?
    Senator Barrasso. Yes.
    Mr. Wheeler. Yes, as soon as we get that information back 
from the Department of Energy. The first step in that process 
is for the Department of Energy to take a look at the 
application and make determinations as far as whether or not 
there are economic hardships involved.
    Senator Barrasso. I will turn to another topic. Like EPA, 
the State of Wyoming issued temporary guidance to address 
challenges posed by the coronavirus pandemic. The EPA has 
provided important direction to States and to businesses during 
an unprecedented time of social distancing.
    Can you talk a little bit about the objectives of the 
Enforcement and Compliance Program guidance?
    Mr. Wheeler. Absolutely. Not only Wyoming, but every single 
State represented by members of this Committee except for 
Delaware has issued enforcement discretion policies since 
March, every single State on this Committee, except for 
Delaware. This is normal; in our enforcement discretion, the 
policy that we issued is much more mild than any that we have 
done in the past.
    For example, during the Obama administration with Hurricane 
Sandy, they actually allowed facilities to increase their 
emissions without checking with the EPA first and the States 
impacted. COVID-19 impacts all 50 States.
    Nobody is allowed to increase their emissions. Zero. Nobody 
is allowed to increase their emissions under our enforcement 
discretion. It only refers to routine monitoring and routine 
bookkeeping reports that they have to file with the agency on a 
regular basis.
    Senator Barrasso. I want to talk about carbon capture, and 
utilization and sequestration. It came up yesterday in our 
discussions with the President of the United States. You know I 
am a strong supporter of this.
    Earlier this year, the EPA started a rulemaking to give 
Wyoming the authority to issue permits on carbon dioxide when 
it is injected underground.
    Wyoming has the expertise to issue these permits. The 
Wyoming Integrated Test Center for Carbon Utilization is 
located next to Basin Electric's Dry Fork Station outside of 
Gillette. They tell us that the EPA's proposal would provide 
much needed regulatory certainty to Wyoming for the carbon 
management projects, and there is bipartisan support on this 
Committee for a carbon capture utilization and sequestration.
    Will you commit to prioritizing this rulemaking and other 
actions that support the development of carbon capture 
projects?
    Mr. Wheeler. Yes, and on April 1st, we proposed to grant 
Wyoming the permitting primacy for the Class 6 wells, which are 
used to sequester carbon dioxide. EPA supports Wyoming's 
leadership in protecting their natural resources and 
environment, and we encourage other States, actually, to follow 
their example to implement and enforce this important program 
under the Safe Drinking Water Act.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Mr. Chairman, colleagues, Delaware is right 
in the middle of a lot of busy corridors in the Northeast. A 
lot of people live in the Northeast. There is a lot of traffic 
in the Northeast, I-95, 495, 295, and a lot of it comes right 
through my State.
    Over 80 percent of the pollution in my State, the air 
pollution, particularly in northern Delaware, comes from 
sources outside of our State, generated by sources outside of 
our State.
    We have the misfortune of being downwind from a lot of the 
pollution that comes to Delaware. It keeps us out of compliance 
with some of the air pollution and clean air requirements that 
others are able to meet because they live in places like 
Wyoming and Oklahoma, where they don't have all those millions 
of cars and trucks and vans coming through their States every 
month.
    There also happen to be a couple of coal fired plants; 
three in Pennsylvania, I think, one in West Virginia, that spew 
pollution into the air. Guess where it blows? It blows into my 
State, and it helps keep us out of compliance with the Clean 
Air requirements.
    We have gone to court. We have asked the courts to say, 
basically, to these four polluting plants, you cannot turn off 
your pollution prevention, your pollution controls. The courts 
have basically ruled and said--D.C. Circuit Court of Appeals 
ruled this week and said they have got to keep their pollution 
control equipment operating, so that States like mine don't 
drown in pollution from other places.
    Now, EPA can appeal that decision if they choose to, and 
Administrator Wheeler, I just want to ask you not to appeal 
that decision. The Circuit Court has appealed.
    If there is ever a true example of the golden rule, 
treating other people the way you want to be treated, I think 
this is it, and I would like to have your assurances that you 
are not going to appeal the decision of the D.C. Circuit Court 
of Appeals.
    Mr. Wheeler. I have actually not been briefed on the 
decision yet this week. I am supposed to have a briefing, I 
believe, later this afternoon, so I want to reserve judgment 
until my attorney is at the office and the Office of General 
Counsel.
    Senator Carper. Well, in that case, we look forward to 
hearing from you further. Thank you.
    Mr. Wheeler, early research has shown that people exposed 
to more air pollution may have greater COVID-19 risk, just like 
we saw with the SARS coronavirus. It is also crystal clear that 
COVID-19 is having a far more serious impact on lower income 
and minority communities, which also often experience more air 
and water pollution.
    While EPA has used funding Congress provided in the CARES 
Act to study disinfectants and whether COVID-19 can be detected 
in wastewater, it is clear that there is much to be learned 
about this disease and its impact on Americans.
    My first question, Mr. Wheeler, is would you commit to re-
allocate unused EPA funds to study whether exposure to air 
pollution causes people with COVID-19 to have worse outcomes or 
more difficult recoveries, or to be more susceptible to other 
diseases once they have recovered? Could you commit to doing 
that please?
    Mr. Wheeler. We are looking at those research areas. A lot 
of other people are researching that as of now.
    You have the Harvard study that you mentioned, although the 
Harvard study has a number of issues and problems that Senator 
Barrasso mentioned. The other study in your staff report that 
you issued yesterday evening or early this morning----
    Senator Carper. I don't have much time. I am sorry, we have 
5 minutes, we have votes coming up in 30 minutes, so I will ask 
you to answer my question for the record.
    Mr. Chairman, I also want to ask unanimous consent to add 
all the studies, some of which, most of which actually have 
been peer reviewed that my staff report referenced in for the 
record, if I could ask that unanimous consent, please.
    Senator Barrasso. Without objection.
    [The Web address and referenced information follow:]
    https://projects.iq.harvard.edu/covid-
pm?gsBNFDNDN=undefined&utm_campaign=wp_
the_energy_202&utm_medium=email&utm_source=
newsletter&wpisrc=nl_energy202

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Carper. Thank you.
    Mr. Wheeler, my next question is probably my last question, 
given our time constraints.
    We know COVID-19 is going to be with us for many months, 
probably for years. Even if rapid vaccine development efforts 
are successful, you will observe that some of the early studies 
linking air pollution and COVID-19 have not been peer reviewed.
    The Centers for Disease Control says that people with 
diabetes and heart disease may be at higher risk for serious 
illness from COVID-19. Since I don't have much time, I will 
just make these yes or no questions, if we could.
    The first one, Administrator Wheeler, is do you agree that 
EPA's own work has demonstrated that there is a clear link 
between exposure to air pollution and higher incidence of 
diabetes and heart disease? Do you agree with that?
    Mr. Wheeler. I believe that is true.
    Senator Carper. Thank you. Another one, and then I am done.
    Yes or no, if the link between exposure to air pollution 
and COVID-19 risk is further established by EPA or other peer 
reviewed research, will you commit to ensuring that these 
health effects and risks are factored into all of the agency's 
future air pollution rulemaking, as well as its environmental 
justice efforts?
    Mr. Wheeler. We factor diseases such as that into all of 
our rulemakings already, and we also factor that into our 
environmental justice programs. The 2005 study, for the 
European study that your staff report references is a 2005 
study, which is actually out of date, so we are not sure of the 
validity of that, as far as COVID is concerned.
    Senator Carper. Let me just close with this. If the link is 
established, will you factor it into future air rules and EPA 
activities or not? Will you stop writing rules that make things 
actually worse, not better?
    Mr. Wheeler. All of our rules make things better, sir.
    Senator Carper. Mr. Chairman, I think I have made my other 
unanimous consent request. Thank you very much for the time.
    Senator Barrasso. Thank you very much, Senator Carper.
    I would point out that only a few weeks after releasing 
their research, the authors of the Harvard study have already 
had to revise their findings. Instead of focusing on unproven 
studies, I would recommend that we rely on what the CDC tells 
us, that proximity matters.
    For example, I think we should evaluate how public transit 
has contributed to the spread. As the New York Times recently 
reported of coronavirus, the Times says coronavirus has drained 
the subway of more than 90 percent of its riders, killed nearly 
100 workers, and sickened thousands more.
    So I ask unanimous consent to enter this article into the 
record without objection, and will do so.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. First of all, I 
think that was one of the best opening statements I have heard. 
I said to the Administrator that we really need to hear the 
truth. We need to get it into the record.
    And I have to share something with my fellow Senators, 
here.
    When you were confirmed, Andrew, I remember that there was 
a very large meeting of all of the employees, I think all of 
the employees of the EPA who were invited.
    Mr. Wheeler. Yes, sir.
    Senator Inhofe. There were several out there that you 
didn't even know of, but I was there, because I wanted to 
watch. I wanted to see the reaction of these people. You see 
the ones who realize that, here is Andrew Wheeler. Sure, some 
of them may disagree with your philosophy in different areas, 
but no one would say that you are not the most knowledgeable 
person, there is no one who is more knowledgeable than you who 
has ever crossed into that Administrator's position.
    I watched the expression on the faces, and what we could 
see there was, in their own way of saying it, there is room at 
the top. That you started your career with the EPA, and you 
have taken every position, and you have exceeded, and you have 
come to the top.
    That was a very heartwarming thing, not just because you 
worked for me for 14 years, but because they all knew that 
there is, in fact, room at the top.
    Then in your statement, I thought you did a very good job 
of showing what we have done for the environment, for the 
quality of life. For people to try to say that that is not the 
case, they don't have the facts.
    We just look and we see what has happened since, and I 
could go in there and talk about some of the things. I think 
they were covered very well by the Chairman, and the fact that 
all pollutants have decreased. One of them, I have often talked 
about is in the year 2017, in this Administration, all of it in 
this Administration, the United States led the world in 
CO<INF>2</INF> emissions reductions.
    So what you have done is just an incredible feat, and I am 
very, very proud of you. You have had a lot of help. I think 
your first top person was R.J., and we don't need to talk about 
him anymore, because he's not there, but you do have someone 
else in Mandy.
    I can tell you that you didn't do all this stuff alone. You 
had a lot of help, and she was a skilled attorney, she was very 
active in the previous Administration, and I am just real 
proud.
    I see that she is here, so I want to say to you, Mandy, you 
are doing a great job, and what a great team that we are 
looking at, and we are very proud of you.
    Two things I was going to bring up. One has been brought up 
very effectively by the Chairman, and that is the Tenth Circuit 
and what has happened on small refiners. This is the major 
concern that I have in my State of Oklahoma. It has been a real 
serious problem.
    What hasn't been mentioned is just, the whole industry is 
undergoing problems that are unprecedented. We do know right 
now Saudi Arabia and Russia are trying to put us out of that 
business very clearly, and I have even suggested to go as far 
as tariffs, talking to the Secretary of Commerce. Something 
like that needs to be done.
    But then when you talk about the refiners and the problems 
that they are having, I think you have answered the question 
very well that our Chairman asked about that, and I appreciate 
the fact that he did very effectively discredit the report that 
we have heard over and over again.
    So what I would like to do in keeping with the time, 
nothing has been said so far about the disastrous Obama era 
fuel economy standards. We all knew what was happening at that 
time, and I would like to have you look at the Safe Vehicle 
Rule, and specifically addressing the rule in terms of choice, 
in terms of vehicle price tags, in terms of passenger safety, 
in the remaining time. Would you do that?
    Mr. Wheeler. Absolutely, sir. First, there is a lot of 
misinformation out there. Our Safe Vehicle Rule will save more 
lives than not, and that has been shown in our analysis, in our 
joint analysis with NHTSA.
    It also will help produce automobiles that Americans want 
to purchase. One of the problems that we have seen over the 
last 10 years are the average age of cars on the road is 
increasing. It used to be 8 year old cars on the roads; today 
it is 12 year old cars on the roads. The older cars are 
inherently less safe and worse for the environment.
    We have proposed increases each year, 1.5 percent better 
fuel efficiency. The Obama administration did have a higher 
percentage, but the companies were not complying with that; 
they were unable.
    In 2016, only four companies were able to comply; in 2017, 
only three, without having to cash in credits or pay fees or 
penalties to the Treasury. Those fees and penalties were to 
reach over $1 billion. That is $1 billion that would have been 
passed on to the consumer in higher prices of cars.
    Our regulation will save lives, it will reduce 
CO<INF>2</INF> over the long term, and it will allow Detroit 
and the other automobile companies around the world to produce 
cars that Americans want to purchase.
    Senator Inhofe. Thank you.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Wheeler, for your testimony 
and thank you for your service. Sorry I can't be in the 
Committee room personally, but this is how our hearings are now 
being conducted.
    I want to first disagree with my friend, Senator Inhofe, in 
regard to CAFE standards. CAFE standards not only deal with 
clean air, but also act as a way to get American manufacturers 
doing what is necessary in order to stay ahead of the curve in 
regard to our environment. So I am disappointed by the Trump 
administration's policies on CAFE standards, and I would hope 
that you take a new look at that and do things differently.
    I want to use my time first to talk about the Chesapeake 
Bay. The Chesapeake Bay has received strong bipartisan support 
from the Congress of the United States with our Committee, and 
the Senate has reauthorized the program at a higher level than 
the current authorization amount. Through the appropriation 
process, we have brought an extra $12 million for the Federal 
share of the Chesapeake Bay Program. So there is strong 
bipartisan support.
    As you and I have talked about, this is a program that is 
from the State and local government up. The Federal Government 
does not set the rules. The local governments have set the 
rules under the Chesapeake Bay plans, and the watershed 
improvement plan is aimed at making sure each State does what 
it says it is going to do using best science to work to achieve 
our objectives. Our current objectives are based on 2025 goals.
    My concern is, we have got messages from the EPA that you 
are not going to act as the impartial observer here, enforcing 
what the States say they can do and science says that they are 
able to do.
    Can you just assure me that the EPA, in fact, will make 
sure that we comply with the Clean Water Act in achieving the 
goals of the Chesapeake Bay Agreements that the States have 
signed on to to reach the 2025 goals, and that requires you to 
enforce our watershed improvement plans based upon the TMDL 
standards? What is your position on this?
    Mr. Wheeler. Senator, thank you for asking me this, because 
there is been a lot of misinformation out there over the last 
few months. We are working with all the States to make sure 
that they are implementing their 2025 targets under the TMDLs.
    The TMDL, as the Obama administration argued to the Supreme 
Court, is not legally enforceable. That doesn't mean that we do 
not work with the States to make sure that they are meeting 
their obligations.
    As of the Phase 3 WIPs that were filed last year and that 
EPA reviewed, five States are currently not shown to meet their 
obligations by 2025. Pennsylvania and New York are of course, 
two of them, but also Maryland is currently not set to meet 
their obligations by 2025, either.
    But we are working with all of the States to make sure that 
they meet their obligations by 2025. We just announced, on the 
new funding we received from Congress, we just announced this 
week that $6 million of the $12 million is going to go to 
nitrogen reductions in the targeted States. A large percentage 
of that is going to Pennsylvania, because quite frankly, they 
have one of the largest problems on nitrogen loading into the 
Chesapeake Bay. So we are trying to use the funds in order to 
address the biggest problems where they are occurring.
    I was very surprised to see that the Chesapeake Bay 
Foundation and the Attorneys General from Maryland and Virginia 
announced that they are going to sue the EPA over this. My EPA 
staff over the last year have put in 22,000 hours of technical 
assistance to the States in order to help them comply with the 
WIPs. If I am going to have to pull people off of technical 
assistance, to fight them off is going to hurt the Bay.
    Senator Cardin. Can I just say, for 1 second, can I just 
interrupt for one moment? There is one this about providing 
technical assistance, that is very important, and you need to 
do that, and we welcome that.
    There is another thing about enforcement saying that you 
have got to hit what you say you are going to do, and science 
says is achievable. The concern is, will you, at the end of the 
day, enforce these agreements?
    Mr. Wheeler. Again, sir, as the Obama administration argued 
to the Supreme Court, the TMDL is not legally enforceable, but 
we can use our permit authorities, and we are, and we have, and 
we will continue to do so. That is under the NPDES Program, to 
make sure that the States are going to be able to achieve their 
targets by 2025. We are doing that across the board; we always 
have, and we will continue to do so.
    The comment that spurred all this was back in a January 
meeting with one of my career managers at a public meeting, 
where his comments were taken out of context, which was 
directly on the TMDL issue. It does not mean we don't have 
other authorities. We continue to use those authorities through 
our permitting process to make sure that all the States meet 
their obligations.
    But again, if we are going to, first of all, nobody has 
failed to meet their obligations, and they won't until 2025, so 
these lawsuits are premature at best. But to have to pull staff 
off of providing technical assistance to the Bay States in 
order to answer these, quite frankly, frivolous lawsuits, is 
going to detract from getting our work done on cleaning up the 
Bay.
    Senator Cardin. My last point on this would be, I think the 
more that you can broadcast that you are holding the States 
accountable, whatever methods you can do, I think would go a 
long way to alleviating some of the concerns that you are going 
to see some States doing their share and other States not doing 
their share. That seems to be the major concern, and I hope 
that you will work with us, those of us that are very 
interested in this program to make sure, in fact, we do have a 
workable program with EPA enforcing, as they can, the 
responsibilities of the local stakeholders.
    Mr. Wheeler. Thank you, and we are working with the 
Maryland Department, the Environment Department. They are 
behind as well; they have five permits that they were supposed 
to issue in 2018. Those haven't been issued yet.
    We are working with them. If anything, I would hope that 
the Maryland AG will decide to work with the Department of 
Environmental Quality instead of pursuing a frivolous lawsuit.
    Senator Cardin. Thank you, Mr. Wheeler.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. Thank you, Mr. 
Administrator, for your good, hard work, and thanks for being 
here today and your testimony.
    I would like to say, I appreciated a year ago, we were down 
in Minden, West Virginia, looking at a site, and I know that 
you have continued to do soil sampling there. But I understand 
it has been put on hold because of the COVID response.
    Can you just give me a quick update on that, where you are?
    Mr. Wheeler. Certainly. We are continuing to work on all of 
our Superfund sites around the country. There are some 
samplings that we just can't do right now, as far as having 
employees go out physically in the field. But that doesn't mean 
that we are not cleaning up the sites.
    On Minden, that is a high priority. I fully intend to visit 
the Minden community again. That is a community that was 
forgotten for years, and it is forgotten no more.
    Senator Capito. Thank you. I appreciate that, and I know 
that that will be welcome to the folks in Minden.
    Quickly on the PFAS, you probably knew I was going to ask 
you about that one, as something I am very interested in. You 
and I have talked about it a lot over the last several years.
    I am very pleased the EPA has moved forward on the language 
that Senator Carper and I worked on with Senator Gillibrand 
that you added 172 PFAS chemicals to the Toxic Release 
Inventory, so thank you for that. That is a major development 
providing more information for not just companies, but for 
individuals and health folks in those communities.
    Looking forward, what can we expect for our finalization of 
the MCL for PFAS and PFOA, as you know, we just passed--you are 
probably aware--last week out of this Committee, a Drinking 
Water Infrastructure Act that asks that that standard be set 
within a year?
    Could you meet that deadline, and where are you on this 
critical issue?
    Mr. Wheeler. We continue to work through the process for 
the MCL setting as laid out by the Safe Drinking Water Act. We 
went forward with our reg determination, I believe that was 
published in February, to comment on that, and we are moving 
forward.
    As far as meeting a 1 year deadline, I don't believe that 
the agency can set an MCL on their own following the Safe 
Drinking Water Act within a year. But we are working through 
the issues, and I think it is very important to work through 
those issues.
    But the main point I want to emphasize, while we are doing 
all of this on the MCL standard setting, and the way the 
determination that we made, or proposed, is we are continuing 
to enforce cleanups around the country. We have enforced 12 
cleanups of PFAS contaminated communities around the country, 
and we have assisted States and local governments with another 
two dozen. So where we see the problem in the drinking water 
anywhere in the country, we are going after it aggressively to 
make sure that everyone has safe drinking water.
    Senator Capito. Thank you.
    As you know, this is a source of concern for many of us, 
certainly those around that have military bases or firefighting 
foam, and we have worked with the DOD on this. But I just want 
to tell you to expect from me a very aggressive posture on this 
because I am very passionate about this particular issue when 
it comes to safe drinking water, and I encourage the EPA to be 
as quick and as thorough as possible in this area.
    The last thing I would like to ask you about, I would like 
to ask you two more things, but one of them is on, over the 
weekend, the EPA allowed the sell through of already 
manufactured wood heaters that are compliant with step one.
    As you know, we have had that discussion. We can't get the 
bill passed through this Committee, and as you know, many 
people have these wood heaters, and they would like to sell off 
their inventory before they have to meet the new standard. You 
have allowed them 6 months. Senator Carper offered an amendment 
to allow a year for this sell through, but I understand you are 
catching some criticism from others on this.
    What is the status of this, and how do you think this is 
going to be impacted?
    Mr. Wheeler. Certainly. First of all, Senator Carper 
referred to them as antiquated wood heaters. It is important to 
remember that those wood heaters meet the Obama 2015 standards. 
So we are not talking about standards that are 20 or 30 years 
old, but the standards before 2015 were 1988.
    So these wood heaters that are currently, that we allow the 
sell through for the next 6 months, meet the 2015 Obama 
standards. The reason we increased this even though we decided 
last year not to, was after talking to a number of people in 
the wood heating industry, and I think it is either 80 percent 
or 90 percent are small businesses, they sell off their 
inventory in the March to May timeframe through rebates and 
sales at the end of the winter season around the country.
    With the closure of all the stores across the country, they 
were unable to sell that inventory, and under their contracts, 
they have to buy back the wood heaters that are still on the 
shelves of your Home Depot or Lowe's department stores, 
hardware stores. They have to buy back the older inventory on 
their shelves, and that could very easily bankrupt a number of 
small manufacturers.
    So we extended the sell through to November. That is our 
proposal, so that they can sell those at the beginning of the 
winter season this coming fall and try to get rid of that 
inventory before they start selling the 2020, I guess it is 
2020, new heaters.
    Senator Capito. Right. I appreciate that, and I appreciate 
the distinction that these are meeting the 2015 standards, and 
I think that is an important distinction to make.
    The other thing I would say in this current environment 
that we are in, when we are looking to protect small 
businesses, a lot of these wood heaters are sold in our locally 
owned small businesses in certain areas of the country where 
people really enjoy and use this, not just for fundamental 
heating, but for recreational, more second home types of things 
on the creeks and in the hunting cabins all across the State of 
West Virginia.
    So I appreciate your looking out for the small business 
interests. We have been trying to do that here during this 
COVID crisis, and I am very fully supportive of what you have 
done. I could have gone for a year, but 6 months, if that gets 
the desired result, that sounds good to me.
    I going to ask a question on the record on the ACE Rule, 
but I have run out of time.
    Thank you.
    Mr. Wheeler. Thank you, Senator.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chair.
    Let me start by remarking that what the Chairman called 
burdensome regulations on coal to protect Rhode Island 
families' clean air and breathing. The Chairman's burdensome 
regulations on water pollution are, for Rhode Island families, 
clean rivers, and [indiscernible] bay, like Delaware, Rhode 
Island is a downwind and downstream State. So what the Chairman 
[indiscernible] polluting interests are Rhode Island 
[indiscernible] our harms, our losses, our injury. So I cannot 
[indiscernible].
    I would like to ask about the CAFE auto fuel efficiency 
standards today, particularly the role of Marathon Petroleum in 
attacking the auto fuel efficiency [indiscernible]. In 
particular under your watch, what role have you seen Marathon 
Petroleum play with respect to the fuel efficiency standards?
    Mr. Wheeler. Senator, I didn't catch everything you said at 
the beginning, but as far as your question on the CAFE 
standards, I did not meet with or discuss with Marathon Oil 
Company, or actually any oil company on our CAFE standards at 
all during the process.
    So, I did not discuss that with them. I believe that at my 
hearing last year, Senator Markey told me that the oil industry 
was supportive. That was the first time I had heard that they 
were supportive of our rule, but this was not something--we are 
working this out with NHTSA. We spent a number of years going 
over all the technical data behind this, and this was not done 
on behalf of any oil company at all.
    Senator Whitehouse. So your EPA staff did not meet with the 
agents or representatives of Marathon Petroleum in the 
preparation of your fuel efficiency regulation?
    Mr. Wheeler. Not that I am aware of, and I certainly never 
discussed that with any of my staff. Not that I am aware of. I 
certainly didn't, myself.
    Senator Whitehouse. Do you know who represents Marathon for 
lobbying and regulatory purposes?
    Mr. Wheeler. Well, again, I get confused between Marathon 
Oil and Marathon Petroleum. I know one of the lobbyists because 
he used to work in my law firm, and I was recused from meeting 
with him. So I didn't meet with him at all for the last 2 
years. But I know some of the names of some of the people who 
represent both companies.
    Senator Whitehouse. Was that Michael Birsic?
    Mr. Wheeler. It might be, but I didn't meet with him.
    Senator Whitehouse. Are you aware--well, I will make these 
all questions for the record so you have a chance to give full 
and complete deliberation to making sure that your answers are 
accurate and complete.
    Are you aware of any contact between Marathon Petroleum and 
the Department of Justice, specifically the Antitrust Division 
of the Department of Justice?
    Mr. Wheeler. No, I am not aware of, and I wouldn't have 
knowledge of that, no.
    Senator Whitehouse. Are you aware of any contact between 
EPA, anyone on your staff and the Department of Justice 
Antitrust Division regarding the fuel efficiency standard?
    Mr. Wheeler. Not that I am aware of, no.
    Senator Whitehouse. Do you know what business Marathon 
Petroleum is in?
    Mr. Wheeler. I am sorry, you cut off on that. Something, 
another question about Marathon Petroleum?
    Senator Whitehouse. What business Marathon Petroleum is in?
    Mr. Wheeler. I am not aware. I would prefer to respond on 
the record, because I am not sure that I am catching your 
entire question.
    Senator Whitehouse. Do you know that they are auto fuel 
refiners and sellers?
    Mr. Wheeler. Again, I am sorry Senator, I am having a hard 
time hearing you. I would be happy to respond on the record on 
questions about Marathon Petroleum.
    But again, I have not met with any oil company to talk 
about the CAFE safety standards since I have been at the 
agency, and I did not have any conversations with any of my 
staff about the views of oil companies in regard to the CAFE 
standards.
    Senator Whitehouse. And you are not in contact with them 
through some of their intermediaries?
    Mr. Wheeler. No. I can hear you now. No, I am not.
    Senator Whitehouse. OK. That is it for now. I will make 
them questions for the record, and I appreciate it very much.
    Mr. Wheeler. Senator, I do want to follow up with you. When 
I saw you in January, I told you I was getting ready to go to 
Brazil, with the Amazon to talk about trash free waters 
programs. My meetings there were very fruitful, and I look 
forward to having some further discussions with you about that, 
and we are making a lot of progress on trying to clean up the 
plastic debris in the oceans.
    Senator Whitehouse. This is one of the rare areas where you 
and I agree, so let's do that.
    Mr. Wheeler. That is why I wanted to draw it to your 
attention, sir.
    [Laughter.]
    Senator Inhofe [presiding]. All right, that is good.
    I want to make a comment and a UC request.
    The EPA's decision to change the greenhouse gas standards 
for cars and trucks was set by a prior Administration, and it 
was warranted. In 2017, the Alliance of Automobile 
Manufacturers sent a letter to the agency. That letter said, if 
left unchanged, those standards could cause up to 1.1 million 
Americans to lose their jobs due to the loss of vehicle sales, 
and low income households would be hit the hardest.
    Now, I will ask unanimous consent without objection, to 
enter this into the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Inhofe. Senator--who is next on here?
    Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman.
    Thank you, Administrator Wheeler for being here, and I want 
to echo something that Senator Inhofe said. Your opening 
statement was really fantastic, in fact, I can't wait to post 
it, because a lot of people would do well to listen to that 5 
minutes of accomplishments of this Administration under your 
leadership at the EPA. So thank you for that.
    I am not real certain about the 500 or so people you have 
said you have hired or are going to hire, but I will look into 
that. But I will give you the benefit of the doubt that they 
are all important and necessary. Thank you for being here.
    I also want to thank you, by the way, for the final Waters 
of the U.S. Rule. That was such an important move.
    As you know, the previous Administration's WOTUS Rule was 
burdensome and illegal, as have previous attempts at Waters of 
the U.S. The fact that you guys finished off one that actually 
listened to States, listened to landowners, and protects our 
waters in an appropriate way while also protecting the rights 
of States and the rights of landowners was really important. I 
thank you for coming out the North Dakota and meeting with a 
number of them at my roundtable, so thank you for that.
    I want to shift gears a little bit and get your insights on 
another issue, the Regional Haze Program. This is an issue very 
important to North Dakota and North Dakotans. I brought this 
issue up with Mr. Benevento as well at his hearing process.
    As you know, we are a major energy producing State; it 
includes coal, oil, gas, wind; we have lots of wind as well.
    The last Administration wanted to just keep driving 
emissions down by using the Regional Haze Program without 
stopping to think about what the program is all about, and that 
is, of course, visibility improvement, a very important 
distinction, visibility improvement.
    But the cost of compliance can actually cause plants to 
have to be shut down, which leads to plant closures, which 
seems like an awfully steep price to pay for visual 
improvements that are literally unnoticeable to the naked human 
eye.
    North Dakota is already a national leader in air quality. 
We are one of the very few States who meet all of the Ambient 
Air Quality Standards that are prescribed by the EPA.
    But the previous Administration really wasn't about 
visibility standards at all, it was about using every tool they 
could to get after things both in the, well, certainly in the 
Clean Water Act, but also, of course, the Clean Air Act, and 
they tried to utilize Regional Haze to accomplish some of those 
goals.
    In August of last year, under your leadership, the EPA 
released final guidance outlining the flexibility that States, 
and once again, recognizing the primacy of States, have to 
comply with the program under the Clean Air Act. So with that 
in mind, I just have a few questions.
    One, Regional Haze could be, as I said, a potential reason 
for plant closures. Do you think it was Congress's or any 
Administration's goal with the Regional Haze Program to put 
producers and generators out of business?
    Mr. Wheeler. No, I don't, and I think there is a definite 
difference between the health based standards versus the 
visibility aesthetic standard.
    Senator Cramer. So, would you agree that the Regional Haze 
program drives States toward a goal, but does not dictate 
exactly how States would achieve reasonable progress toward 
that goal in their SIP, or their State Implementation Plan?
    Mr. Wheeler. I believe that is how it should be. The 
problem that we have right now, and we have been trying to 
correct it, is the Obama administration issued a number of 
FIPs, Federal Implementation Plans, instead of SIPs.
    On the Regional Haze side, we have changed 15 of those FIPs 
into SIPs over the last 3 years, which is working more 
cooperatively with the States instead of directing from 
Washington, DC.
    Senator Cramer. So just to clarify, States do have a lot of 
flexibility in how they show that reasonable progress, and they 
can do that through their SIPs, as opposed to complying with a 
FIP?
    Mr. Wheeler. They should, and that was the way, it is my 
understanding that the 1990 Clean Air Act Amendments in the----
    Senator Cramer. Can you provide any specific examples of 
States' flexibility?
    Mr. Wheeler. I would rather get a specific list back to 
you.
    Senator Cramer. That is fine.
    Moving forward, I just want to encourage you and Regional 
Administrator Sopkin to continue these constructive 
conversations with the North Dakota Department of Environmental 
Quality as they develop their State Implementation Plan. It is 
really one more great example of how cooperative federalism 
really can work, and have, as you have stated many times, the 
goal of actually being better for the environment as well as 
being better for the economy. So I appreciate that.
    I will follow up with a question on the record relating to 
Section 401, and where I think there have been Section 401 
abuses in places like New York and Washington State, and what 
the EPA is doing to ensure that the efforts of abuses don't 
happen in the future.
    With that, thank you for being here.
    Mr. Wheeler. Thank you.
    Senator Inhofe. Senator Merkley.
    We will go to Senator Booker.
    Last try here, Senator Van Hollen.
    OK. Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman, and Mr. 
Administrator, thank you for being here.
    In 2015, the Grass Roots Rural Small Community Water 
Systems Act was passed and signed into law on May 6th of this 
year. The committee passed a bill, the Drinking Water 
Infrastructure Act, which would reauthorize the Grass Roots 
Rural and Community Water Systems Act.
    I had previously sent a letter 2 years ago, almost 2 years 
ago, regarding concerns about the technical assistance being 
funded by EPA. My letter mentioned that EPA was awarding grants 
to organizations that are not located near the community 
seeking help, which resulted in remote assistance. Remote 
assistance, I am hearing from out there in my State, is simply 
not adequate.
    Will you commit to ensuring, do you agree that remote 
assistance is not desirable, it is not optimal, and will you 
commit to ensuring that rural and small communities receive the 
necessary onsite technical assistance that they require?
    Mr. Wheeler. We certainly strive to provide the best 
technical assistance that we can, and onsite, you are right, is 
preferable.
    I would have to check as far as the funding for the program 
at this point on what our capabilities are, but we try to 
provide assistance to the small water systems in particular as 
much as we can.
    Senator Wicker. Well, my understanding is the program 
received $15 million, an increase of $2.7 million from the 
amount appropriated in fiscal year 2019, so work with us on 
that.
    Next, Mr. Administrator, the 2018 America's Water 
Infrastructure Act included a piece of legislation that I 
authored entitled Small and Rural Community Clean Water 
Technical Assistance to Small and Rural Publicly Owned 
Treatment Works. Congress appropriated $12.3 million, but EPA 
has not yet to request applications for this funding.
    When does EPA expect to move forward with implementing this 
legislation so that our small and rural treatment works can 
receive the technical assistance they need, and in particular, 
the issuance of applications for this funding?
    Mr. Wheeler. We are working on that as we speak. I believe 
that was funding that we received for 2020, so we are working 
to get that program up and running.
    Senator Wicker. OK. Well, get back to us on that, and there 
is an eagerness for action there.
    Next, when Congress passed the Clean Water Act, it made it 
clear that groundwater should not be subject to Federal 
permitting requirements. As a result, States have traditionally 
taken the lead on regulating groundwater.
    However, the Supreme Court recently issued a ruling in the 
County of Maui v. the Hawaii Wildlife Fund that could change 
this. As EPA considers the implementation of this Supreme Court 
ruling, how can you ensure that the traditional role of States 
be preserved in regulating groundwater?
    Mr. Wheeler. We are still reviewing the decision from the 
Maui case, trying to determine whether or not we need to issue 
new guidance or potential rulemakings. But we have not reached 
any conclusions on the best way of implementing the Maui 
decision at this point.
    Senator Wicker. What is your initial impression there, Mr. 
Administrator?
    Mr. Wheeler. I am always hesitant to say anything critical 
of the courts. They provided a new balancing test, basically, 
and the decision that is going to be a little difficult. We 
were hoping for more clear cut direction, quite frankly, but we 
are reviewing the decision to see what flexibilities we do have 
to make sure that the program cannot break.
    Senator Wicker. Finally, if I could just ask, in the 
Consolidated Appropriations Act of 2020, there is a provision 
directing your agency to establish clear policies that reflect 
the carbon neutrality of biomass. It is important that EPA 
publish a proposal this year to ensure that U.S. manufacturing 
can compete globally.
    What is the timeline for proposing and finalizing a rule 
recognizing the carbon neutrality of biomass?
    Mr. Wheeler. Our proposed rule is currently going through 
interagency review as we speak, and we hope to publish the 
proposal in June.
    Senator Wicker. In June? OK, thank you, and I yield back, 
Mr. Chairman.
    Senator Inhofe. Senator Merkley.
    Senator Merkley. Great. Thank you very much, Mr. Chairman. 
Can you hear me OK?
    Senator Inhofe. Yes, loud and clear.
    Senator Merkley. OK, terrific. I wanted to start with the 
exploration of the action on the 10 priority chemicals that 
were aiming for final risk evaluation by the end of this year, 
and EPA says it is on track to meet that deadline.
    The key is not just that the timing be met, but that they 
be done in accordance with the guidance that was in the TSCA 
Act, and this was very bipartisan; the whole Committee worked 
very hard on developing the TSCA Act in order to help address 
issues that had been unaddressed for a very long period of 
time. It was a pretty remarkable piece of work that this 
Committee was involved in, so I am particularly concerned about 
whether or not the actual substance of the efforts is 
reflecting the desire of Congress for thorough analysis.
    Taking asbestos as an example, the EPA, in its draft of its 
final rule, proceeded to exclude legacy uses of asbestos. The 
Ninth Circuit Court has said that this exclusion is 
unacceptable, the law is clear, and so that is one problem.
    A second problem is EPA decided to examine only one of the 
types of asbestos fibers when there are six types that are in 
commercial use. So that doesn't make sense in honoring the 
integrity of the analysis.
    The third is the EPA decided to ignore the pathways to 
exposure, including air exposure, contaminated waste, and 
drinking water exposure, all of which are very relevant.
    So meeting a deadline is one thing, but meeting a deadline 
and actually doing the work in a responsible fashion, a fashion 
with integrity that addresses the vision that Congress laid out 
is very important. So I am concerned that this, what we are 
seeing in the asbestos world may also be happening as you look 
at other chemicals and if we are using exclusions, waivers, 
bypasses, ignoring uses, so on and so forth.
    So, why not do the asbestos study looking at the legacy 
uses? Why not look at all six types of fibers? And why not 
explore the pathways to exposure that are required under the 
law?
    Mr. Wheeler. Senator, thank you. So our deadline for the 
first 10 risk evaluations is June 22nd. I don't know if this 
will make you feel better or not, but we probably will not meet 
that deadline as of this point. We are spending more time on 
the first 10. We want to make sure that we get them right.
    The peer reviews have taken longer than we had anticipated, 
and the interagency review process has taken longer than we 
anticipated. I believe we are on track to have at least 2 of 
the first 10 done by June, and the remainder by the end of the 
summer.
    But we are spending more time on them, because we want to 
make sure we get them correct, and we wanted to make sure that 
we have the full advice of the peer review process. So we are 
taking more time on the peer review process and more time on 
the first 10 chemicals.
    On asbestos in particular, on the legacy use, we are going 
to do a separate, supplemental risk evaluation on the legacy 
use, since we believe for the other uses, we can finalize that 
this summer. But the legacy use is going to take longer, and 
that court decision, as you mentioned, just came down last 
year.
    So we will not be able to complete the legacy use risk 
evaluation in time for the rest of the risk evaluation for 
asbestos this summer. So we will be looking at the broader 
asbestos issues as part of the legacy use risk assessment.
    Senator Merkley. So, let me just be specific. Will you 
commit to examining all six types of asbestos fibers, not just 
one?
    Mr. Wheeler. I believe we have that covered under our SNUR, 
the Significant New Use Rule. If that is not the case, sir, I 
will get back to you on that, and provide a follow up answer to 
you on the question. But it was my understanding we were 
addressing that through our SNUR process, which is in tandem 
with our risk evaluation under TSCA.
    Senator Merkley. And will you commit to examining all 
significant pathways to exposure, including air, contaminated 
waste, and drinking water?
    Mr. Wheeler. When a chemical under the TSCA review process 
is already being regulated under a different program, we 
decided early on in setting out the parameters for the TSCA 
risk evaluations that we would not double regulate that in 
order to focus the time on the areas of the chemicals that are 
unregulated at this point.
    So while we have already started, well, we are finishing up 
the first 10, we have already started the next 20. We announced 
those in December, and we are moving forward on the initial 
risk assessments for the next 20.
    As you know, under the new TSCA law, we have very strict 
deadlines. We are trying hard to meet those deadlines. The way 
to do that is to allow the other programs that are already 
regulating aspects of these chemicals to continue to regulate 
them, whether it is a hazardous air pollutant under the Air 
Program, or a regulation under the Water Program.
    Senator Merkley. I don't believe it is the case that anyone 
thinks that asbestos is being properly regulated under, in 
terms of contaminated waste or drinking water or air in other 
programs. So these are the type of evasions and bypasses that 
really concern those of us who work so hard to address these 
toxic chemicals.
    Let me turn to the wood heaters issue. You noted you issued 
an additional 6 months----
    Senator Barrasso [presiding]. The Senator's time is 
expired, and we have members that need to go to vote that have 
been waiting.
    Senator Merkley. Thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Carper, you have a quick unanimous consent request?
    Senator Carper. Just a quick unanimous consent request, if 
I could, to submit a 2019 letter from 17 automakers in which 
they ask that EPA not finalize a rule that would lead to more 
litigation, but instead negotiate a deal with California and 13 
other States. I ask unanimous consent.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Senator Carper. Thank you.
    Senator Barrasso. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and Administrator 
Wheeler, it is good to see you. Thank you very much.
    As we face this global pandemic, no sector has been spared, 
none at all, and as resilient and as tenacious as it might be, 
Iowa's renewable fuels industry is being hit hard.
    Just as oil has lost demand due to people staying home and 
not traveling as much, so has ethanol. Close to 40 percent of 
ethanol production is offline, and these are jobs lost and 
lives upended across Iowa and throughout rural America. My 
farmers rely on these markets, and many of the livestock 
producers rely on the dry distiller's grains for their feed 
rations.
    Administrator, first, are you fully aware and informed of 
the situation facing ethanol producers, and how closely the 
situation mirrors what is going on in the petroleum industry?
    Mr. Wheeler. Yes, and before you entered the room, on a 
question on as far as the small refineries are concerned, I 
mentioned the fact that this is hurting both the ethanol 
industry as well as the small refinery industry.
    Senator Ernst. Thank you for recognizing that. One thing 
that has recently attracted the attention of the farmers and 
the biofuel producers in my State is the attempt by some in the 
petroleum sector to blame renewable fuels for the recent 
downturn, turning to the severe economic harm waiver to argue 
that the RFS is the cause of their recent business troubles, 
not the COVID-19 pandemic.
    Are you familiar with this request?
    Mr. Wheeler. Yes, I am familiar with the request.
    Senator Ernst. To me, the idea that the RFS is the cause of 
harm to the petroleum sector, when it is very clearly the 
COVID-19 pandemic, as well as wars between Russia and Saudi 
Arabia on oil production, this is frustrating to me, and to my 
farmers in Iowa. Time and time again, we are seeing these 
battles play out around the RFS Program.
    It is my hope that EPA follows the precedent around this 
provision established by both Republicans and Democrats, those 
Administrations, that this waiver requires clear evidence that 
the source of economic pain is the RFS, and not these other 
factors.
    Has EPA made a decision on how to handle this waiver 
request?
    Mr. Wheeler. No, we have not yet.
    Senator Ernst. Will you commit that your determination will 
include precedent from 2008 and 2012 about economic harm?
    Mr. Wheeler. Everything we have done under the RFS Program 
during this Administration has looked at the past precedent, as 
well as the requirements of the Clean Air Act and the ever 
changing litigation decisions that we receive from court 
decisions.
    Senator Ernst. So, the answer is yes, you will look at 
precedent?
    Mr. Wheeler. Yes.
    Senator Ernst. OK.
    Administrator Wheeler, when you and I were in the White 
House debating those small refinery exemptions last fall, you 
made commitments to eliminate the E-15 warning labels and to 
allow E-15 to be sold through existing infrastructure. 
Likewise, as a part of that broader agreement, Secretary Purdue 
was to provide funding for rolling out more infrastructure for 
higher blends of biofuels.
    Secretary Purdue put out final rules earlier this month 
upholding his end of the bargain, but I haven't seen anything 
on infrastructure yet from the EPA. Since your agency approves 
E-15 for all vehicle models year 2001 and newer, which is 91 
percent of the vehicles on the road today, will you finally 
eliminate the E-15 warning labels as you committed to do 8 
months ago?
    Mr. Wheeler. Senator, if you remember, after that meeting 
in the White House, I believe we did go back to you and state 
that I had--my staff reminded me when I got back from the 
meeting that I was only looking at the actual pumps, but not 
the tanks underground.
    So it is actually more complicated than what I said in that 
meeting, and we are looking at the warning labels because it 
also impacts and influences the restrictions on the tanks. You 
can't have product going into the tanks; it will end up 
leaking, so we have to make sure that those warning labels 
apply not just to the pumps, but also to the underground tanks, 
so we don't want to see any fuel get into the water system.
    Senator Ernst. When do you expect to see a resolution with 
that issue?
    Mr. Wheeler. As you know, with the Tenth Circuit decision, 
and the other impacts to the program that have come out over 
the last few months, the same small group of staff that have 
been working, that were working on that are also working on 
these other RFS issues as well. We are a little behind on that, 
but we certainly hope to get through that as quickly as we can.
    Senator Ernst. OK. Thank you. I appreciate the willingness 
to work with us and work with rural America on the RFS. It is 
important that the EPA continue to follow the original 
congressional intent of that law.
    Thank you, Administrator Wheeler.
    Mr. Wheeler. Thank you.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, and thank you, 
Administrator Wheeler, for your testimony.
    I would like to follow up on some of Senator Cardin's 
questions regarding the Chesapeake Bay, and I appreciate the 
statements that you personally made in support of the 
Chesapeake Bay cleanup effort.
    I think we would all have a lot more confidence in the 
Administration's commitment to that effort if the budgets 
didn't slash the EPA program for the Chesapeake Bay. We are now 
funding it on a bipartisan basis in Congress at $85 million a 
year, we actually increased it over the last year.
    Yet, the Administration's budget, once again, came in at 
$7.3 million, over a 90 percent cut. So it would boost our 
confidence in your statements of support if they were reflected 
in the budget.
    Let me just ask you a couple questions, because I heard you 
saying in response to Senator Cardin's question, well, the 
Chesapeake Bay Agreement deadline is 2025, and so, Pennsylvania 
and other States have a longer period of time to come into 
compliance. But I think we all know that if a missile were 
fired at us, and we had the ability to intercept it before we 
knew it was going to land in a bad place, we would do that.
    We know that if Pennsylvania, in particular, continues on 
its current trajectory, there is no way that it will meet the 
2025 goals. I mean, right now, they are 25 percent below their 
target on some of the nutrient reductions. They have said they 
are $300 million below in budget just this year in terms of 
what is necessary to meet their obligations.
    Now, I know we have a disagreement with respect to EPA's 
enforcement authority. It looks like we will be litigating 
that. I talked to Maryland's Attorney General today, and would 
point out that Maryland's watermen have also signaled their 
intent to file a lawsuit here. So I have to disagree on that 
piece. But I did hear you say that the EPA, of course, has its 
permitting authority.
    So my question to you is, are you willing to use that 
authority as leverage to help bring all the Bay States into 
compliance and be on a track toward compliance by 2025?
    Mr. Wheeler. Yes, absolutely. We have, and we will continue 
to.
    As far as the funding question is concerned, we believe the 
funds we requested for the Chesapeake Bay Program is what we 
need for that program, but we are using other funds from other 
programs at the agency in order to meet the goals of cleaning 
up the Chesapeake Bay.
    Senator, you were with me when we gave the $202 million 
WIFIA loan to modernize Baltimore's wastewater infrastructure 
with the purpose of cleaning up the Bay, and we have invited 
Baltimore to apply for two additional water infrastructure 
projects under WIFIA that will also help their obligations for 
cleaning up the Bay.
    So the amount of money we are spending on cleaning up the 
Bay is not limited to the program funds of the Chesapeake Bay 
Office. We are using a lot of other resources across the board 
to ensure that everyone reaches their compliance guidelines and 
targets by 2025.
    Senator Van Hollen. Well, Mr. Administrator, first of all, 
no, we appreciate that those WIFIA funds are important, as are 
the funds for the Chesapeake Bay Program, which is why you have 
strong bipartisan support in the U.S. Congress. I am not saying 
that you asked for that cut, but that is a reflection, at 
least, of where the Administration stands.
    Let me just pick up on the thread of using your permit 
authority to enforce compliance. Can you talk a little bit more 
about how you can use that authority to make sure that 
Pennsylvania and the other States are on a track to make sure 
that we are meeting the goals by 2025?
    Mr. Wheeler. Absolutely, and that is exactly what we are 
doing with the State of Maryland, for example. They are late on 
five of their permits, and we are using our permit authority to 
push Maryland----
    Senator Van Hollen. Mr. Administrator, I have heard you say 
that. Look, in Maryland we are working hard. I know we have a 
stormwater issue. We are working to fix it. As you also know, 
it is not going to have any impact on our ability to meet our 
2025 targets.
    So to compare Maryland's issues that we are dealing with on 
stormwater to the 25 percent shortfall of Pennsylvania, really 
is apples to oranges.
    Mr. Wheeler. Senator, I would have to disagree, because 
those five permits are included in Maryland's WIP that they 
will complete those as part of their obligations for the Bay.
    Senator Van Hollen. I didn't want to belabor the point, but 
EPA said, ``Maryland's plan meets its numeric planning targets 
for nitrogen and phosphorus at State based levels.''
    Anyway, I want to ask you about the Mercury Rule change. 
This is a change that you proposed to the rule that went into 
effect in 2012. Is that correct?
    Mr. Wheeler. Yes, sir, it is.
    Senator Van Hollen. And under that rule, a number of 
companies already took steps to comply, and by taking those 
steps, they reduced mercury emissions. Isn't that true?
    Mr. Wheeler. Absolutely. The industry has done an 
incredible job reducing their mercury emissions, and we are 
very happy and proud of that, and our rule will do nothing to 
take away those mercury reductions or the technologies that 
have been deployed, because part of our mercury decision was 
also the residual risk and technology review, and that was a 
bootstrap to make sure that the current standards continue to 
be implemented.
    Senator Van Hollen. Mr. Administrator, if your rule had 
been in effect in 2012, do you think those industries would 
have reduced mercury the way they did?
    Mr. Wheeler. We would have taken a different approach in 
2012.
    Senator Van Hollen. The answer is no. You know the answer 
is no. You know they wouldn't have done this. And so your 
suggestion that there will definitely be no increase in mercury 
pollution when you are changing the rule, that did, in fact, 
lead to reductions in poisonous mercury emissions, is just flat 
speculation on your part.
    This was a gift, as we know, to Murray and Murray Energy, 
it was on their WIF [indiscernible].
    Senator Barrasso. The Senator's time has expired.
    Mr. Wheeler. That is offensive, and that is not what we 
did. We were following the Supreme Court decision, which 
happened after 2012.
    Senator Barrasso. The Senator's time has expired.
    Senator Van Hollen. The Supreme Court asked you to look at 
it, they didn't ask you to come up with a ruling 
[indiscernible].
    Senator Barrasso. The Senator's time has expired.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chairman.
    Good to see you again, Administrator Wheeler. First time we 
met, I told you how dear the environment is to me. I spent 
many, many years involved in agriculture, still do to the 
extent that I can, and I have been a tree farmer.
    We also have gotten now a Senate Climate Caucus. I was the 
first to cross the threshold as a Republican. We have six 
others on it, along with seven Democrats. I think the position 
you are in, now more than ever, has such importance, and I view 
that because I have got four kids. Younger generations really 
believe that we need to do a really protective job of taking 
care of Mother Earth, and I think you cited the progress we 
have made over time.
    Also, I heard that Senator Wicker asked you about forest 
biomass, and that that ruling will be out, fleshed out, in 
June. That is great to hear. Agriculture, according to the 
letter from the 21 expert scientists and so forth said it 
probably even has more applicability with that same principle.
    Is there currently in the EPA consideration of a de minimis 
rule for annual crops similar to what you are going to be doing 
here in June with trees?
    Mr. Wheeler. We are looking at that in a three phase 
process. We are doing the woody biomass first, which was report 
language in our appropriations bills over the last few years. 
We will be looking at the crops. And I am sorry, I don't 
remember if that is phase two or phase three. But over the next 
year and a half, we will be rolling out the other 
CO<INF>2</INF>.
    Senator Braun. Understanding in some detail the benefits of 
both, there might be more marginal benefit as you look into it 
from the crop side of it, so keep that in mind.
    Last month, the EPA announced that three Indiana counties 
and Lake Porter in Delaware have returned to compliance with 
Federal air quality standards. This significant environmental 
achievement is a result of hard work by both the Trump 
administration and your agency and the State of Indiana. Yet, 
it seems to be a story that is rarely highlighted.
    I am glad that you mentioned earlier the progress that we 
have made, and like I said, along with that, we need to be 
steadfast.
    Can you discuss how the Trump administration's focus on 
technical issues like Ambient Air Quality Standards has made 
real improvements in the health and lives of Hoosiers and of 
course, across the country?
    Mr. Wheeler. Absolutely. We have redesignated 38 non-
attainment areas as attainment over the last 3 years, and we 
have more in the works, I believe. We intend to reach 65 by 
2022, and this is working with the States and the local 
governments to make sure that they are implementing different 
procedures and processes to improve the air quality in their 
communities.
    I guess it was last month, we redesignated the last non-
attainment area in Florida. As of today, the entire State of 
Florida is in attainment. We have redesignated a number of 
communities, in addition to the three you mentioned in Indiana, 
a number of communities in Ohio, across the whole Midwest so 
called Rust Belt.
    We are working with communities to make sure that they are 
providing clean air and meeting the standards, the NAAQ 
Standards across the board.
    Thank you for raising that, because that is a lot of hard 
work, not just by our career employees at the EPA, but also at 
the State level and also at the local government level. There 
is a lot of hard work that has gone into reaching and 
maintaining the air quality standards that we have today.
    Senator Braun. You said 38 recently have changed their 
designation?
    Mr. Wheeler. Yes.
    Senator Braun. How many out there are still at the non-
attainment level, roughly?
    Mr. Wheeler. We started with, I believe, 160-some in non-
attainment communities around the country, and so we are making 
a lot of progress there.
    Senator Braun. OK. It would be nice to keep posted on that.
    Mr. Wheeler. Yes.
    Senator Braun. When you are talking about the NAAQ 
Standards, that 2012 standard was the one set by the Obama 
administration's EPA. Can you describe how the agency came to 
the determination to keep the same standard from the Obama era 
levels?
    Mr. Wheeler. Certainly. We have our CASAC panel, our Clean 
Air Science Advisory Committee, that they recommended that we 
keep the same standard. There is a number of uncertainties, 
scientific uncertainties, that they believe we need to further 
investigate before we make any additional changes to the 
standard, and we will be doing that.
    The Clean Air Act sets out a 5 year timetable. We have to 
update the NAAQ Standards every 5 years. The agency has never 
complied with that. We are on track to do that for the first 
time this year.
    But the important thing to remember is once the 5 year 
review ends, the next 5 year review begins the very next day. 
So some of these scientific uncertainties that were brought to 
our attention during this review, we have already started some 
of the research to answer those questions for the next 5 year 
review, and we will start working on that the day after we 
finalize this one.
    Senator Braun. Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Administrator Wheeler, welcome.
    Last week, an article published in the Chicago Tribune made 
an alarming observation. While cities with some of the worst 
air pollution in the world, like New Delhi, are enjoying clear 
skies for the first time in decades, Chicago's own soot 
pollution has gone down by just 1 percent over the last month, 
and on average, April 2020 was dirtier than both April 2018 and 
2017.
    I am concerned that the enforcement policy your agency 
implemented has sent industry the message that they can operate 
without regulation. This non-enforcement policy is almost 
certain to hurt low income communities and communities of color 
the hardest, where industries that operate without regulation 
are most located, in black and brown communities in particular.
    EPA's Region 5 office is in my backyard, and I take very 
seriously that the work force there must be able to shelter in 
place safely. However, I am appalled that EPA would offer a 
blanket non-enforcement policy without seeking specific 
information on why these facilities are unable to comply with 
their permits.
    Can you answer yes or no, is EPA requiring every regulated 
company that claims it is unable to comply with its monitoring, 
reporting, or other compliance obligations due to COVID-19 to 
disclose that information to EPA?
    Mr. Wheeler. They will eventually have to, but Senator, no 
one is allowed to increase their emissions under our 
enforcement discretion policy, so the premise of your question 
is incorrect, and our enforcement staff have been very busy.
    Since March 16th, we have opened 52 criminal enforcement 
cases. We have charged 10 defendants; we have concluded 122 
civil enforcement actions; we have initiated another 115 civil 
enforcement actions. We have secured $21.5 million in Superfund 
response commitments. We have billed more than $20 million in 
Superfund oversight costs, and we have obtained commitments 
from parties for cleanup of 68,000 cubic yards of contaminated 
soil and water, all since March 16th.
    No one anywhere in this country is allowed to increase 
their emissions under our enforcement discretion. The 
enforcement discretion policy only goes to routine reporting 
mechanisms that they have to comply with, and we had to issue 
that because we regulate over 1.1 million facilities across the 
country. Many of those facilities have been shut down, and they 
do not have the staff on hand to submit their reports to us.
    They still have to submit their reports, it is just if 
because of COVID-19, they have to be late, then they have to 
cite why they were late when they submit the reports to us, but 
no one is allowed to increase their emissions. And if they do, 
as I just said, 52 criminal enforcement cases, 122 civil 
actions, since March 16th. So no one is off the hook on 
environmental enforcement in this country.
    Senator Duckworth. So, let me make sure I have got this 
correct. You are saying that EPA currently requires every 
regulated company to report to EPA and to disclose that 
information swiftly to Congress and to the public when they 
cannot comply with the emissions regulations?
    Mr. Wheeler. We did not put a deadline on when they have to 
comply, because a lot of these facilities don't have any 
employees in their facilities, and we don't want to have to 
require people to come in to fill out a standard report.
    Some permits require bi-weekly, monthly, quarterly reports 
to be filed with the agency, and we don't want to have--
particularly, some of these facilities that are not operating, 
they are still required to submit their reports.
    So if because of COVID-19, Corona-19, if they cannot submit 
their reports on time, they are allowed to cite coronavirus. 
They still have to report to us, but if they are going to be 
late because of coronavirus, then they have to cite, 
specifically, coronavirus as the reason why they are late.
    But again, they are not allowed to increase their 
emissions, and if they increase their emissions, we will go 
after them, and we have been, and we will continue to.
    Senator Duckworth. So, I have also seen some reports that 
EPA has shut down air monitors in Region 5 due to the COVID-19 
pandemic.
    Mr. Wheeler. Not that I am aware of. All the air monitors 
are required to be up and running. These are the monitors that 
the States deploy. The data that comes into us from those 
monitors is automated, so you don't have to go out in the 
field.
    We actually have in, I believe it was in Michigan, one of 
the air monitors triggered I believe it was magnesium, and we 
sent a team out to take a look at the monitor to see if the 
monitor was accurate or not. So, no, we are still getting all 
of the data that we normally get from our air monitoring 
network that is deployed all across the country.
    Senator Duckworth. All right, thank you.
    Just one final question. Will you commit to delivering on 
the recommendations that your own Inspector General made in 
regard to public disclosure of ethylene oxides risks?
    Mr. Wheeler. We finalized with the IG, I believe it was 
last week, and there are no outstanding issues with the IG on 
the ethylene oxide report, and we are in agreement with the IG 
and on the steps that need to be taken going forward. There are 
no outstanding steps to that report.
    Senator Duckworth. I am out of time, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Duckworth.
    Senator Whitehouse, I understand you have a few additional 
questions?
    Senator Whitehouse. Yes, I do, Chairman, and thank you.
    Senator Barrasso. Oh, I am sorry. I apologize, Senator 
Gillibrand has been waiting patiently, so I am going to go to 
her, and then I will go to you, Senator Whitehouse, for your 
second round of questioning.
    Senator Whitehouse. Great. I will stand by.
    Senator Barrasso. Thank you.
    Thank you.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Administrator Wheeler, New York has been among the hardest 
hit of all the States in the COVID-19 pandemic. According to 
the most current official counts, at least 22,843 New Yorkers 
have lost their lives. Some of the highest death rates have 
occurred in low income communities of color in the Bronx, 
Brooklyn, and Queens. These same communities also have the 
highest rates of hospitalizations for cardiovascular and 
respiratory diseases.
    Mr. Wheeler. I am sorry, I am having trouble hearing your 
question.
    Senator Gillibrand. Maybe I can do an earphone. OK.
    Administrator Wheeler, can you hear me better now?
    Mr. Wheeler. Yes, I can. Thank you very much.
    Senator Barrasso. Much better.
    Senator Gillibrand. Thank you.
    New York has been among the hardest hit States in the 
COVID-19 pandemic, and according to the most recent official 
counts, at least 22,843 New Yorkers have lost their lives. Some 
of the highest death rates have occurred in low income 
communities of color, such as the Bronx, Brooklyn, and Queens. 
These same communities have also the highest rates of 
hospitalizations for cardiovascular and respiratory diseases 
that are attributable to particulate matter, ozone, and other 
air pollutants in New York.
    Preliminary studies are showing a higher rate of mortality 
from COVID-19 among people with chronic diseases like 
inflammatory lung disease and coronary heart disease, which are 
linked to long term exposure to poor air quality. These 
communities are often downwind from power plants and industrial 
sources of emissions or experience high levels of emissions 
from transportation, including heavy duty trucks and buses.
    It is not hard to connect the dots, and while COVID-19 is 
not only affecting the poorest communities in New York, it 
should be clear to anyone who is paying attention that we are 
seeing much more than a mere coincidence. This should be a 
major wake up call, particularly for those who have a 
responsibility to set and enforce policies to protect public 
health.
    This is why I am deeply, deeply dismayed that in the midst 
of this unprecedented public health crisis, the EPA has chosen 
to relax its enforcement role and further weaken clean air 
protections. The State of New York filed a complaint just last 
week objecting to EPA's broad non-enforcement policy during the 
COVID-19 national emergency.
    So, my question is, what are the expected public health 
outcomes, particularly outcomes related to air pollution, on 
populations with higher vulnerability to COVID-19 of your non-
enforcement policy?
    Mr. Wheeler. First of all, Senator, we do not have a non-
enforcement policy. That is a fallacy. Your Attorney General 
made a lot of legal mistakes in their announcement last week. 
We do not have a non-enforcement policy.
    As I was just explaining to Senator Duckworth, we have 
opened 52 criminal enforcement cases since March 16th. We have 
charged 10 defendants. We have concluded 122 civil enforcement 
activities since March 16th. We have initiated another 115.
    So we are very active on the enforcement side, and I am 
very proud of our enforcement personnel across the country who 
are still enforcing all of our environmental statutes.
    You make it very a good point on the heavy duty truck 
emissions, which is why we are moving forward on heavy duty 
diesel truck emissions regulations, which is not required under 
statute, and it is not required under any court order. But it 
is very important because by 2025, it will be the largest 
source of NO<INF>X</INF> emissions from mobile sources. It does 
have a disproportionate impact, in particular, in inner cities.
    We believe it is very important to move forward on new 
regulations to reduce NO<INF>X</INF> emissions from the heavy 
duty diesel trucks. So we are moving forward on that, and that 
will help, in particular, New York.
    I also just want to point out, we have been working very 
closely with the New York City Transit Authority on long 
lasting antimicrobial coating research. The Transit Authority 
has actually praised the work.
    This is not the work that I have done, or my political 
people, but our career scientists at the agency that are 
working hand in hand with your Transit Authority to try to 
ensure that we have in place antimicrobial coatings on the 
transit system in New York to protect the New York residents as 
the city begins to reopen.
    We are working hard on that to see what we can develop. It 
is probably more long term or medium term research. But we want 
to make sure that the people who are dependent upon mass 
transit in your city and other cities, and I want to applaud 
the New York Transit Authority, because they are working hand 
in hand with us, and the important research that we are doing 
in New York will be able to be used in other communities around 
the country.
    Senator Gillibrand. Well, specifically, last year the EPA 
denied New York's petition under Section 126 of the Clean Air 
Act for ground level ozone emitted by polluters in States that 
are upwind from New York. New York has petitioned the EPA to 
require those sources to reduce the emissions that are 
traveling across State lines, resulting in adverse health 
impacts for New Yorkers.
    Given the extraordinary circumstances now and the fact that 
continued exposure to ground level ozone will undoubtedly put 
more New Yorkers at risk, will the EPA drop its opposition to 
New York's Section 126 petition?
    Mr. Wheeler. Well, we are working. We have a number of 
different decisions from the courts over the last 6 months or 
so, I believe three decisions that we are working to figure out 
how to move forward on. Of course, on the 126, it doesn't just 
impact New York, but it also impacts the other States as well, 
and we have pushback from those States.
    So, we are working, but at the same time, we are working on 
the 126 petitions. As Senator Carper likes to refer to it, the 
good neighbor policies, we are working to make sure that all 
the communities, wherever they are located, including New York, 
have the tools to try to reach attainment on their own, which 
is why we have worked with 38 communities around the country to 
redesignate them after they have met their air quality 
standards as attainment. We will continue to work with all the 
New York communities to try to make sure that they all have 
healthy air, regardless of where those communities are.
    We also, I do want to mention, because you mentioned 
environmental justice, I believe, we put out a round of 
environmental justice grants just a couple weeks ago to help 
environmental justice communities address the COVID-19. So we 
are working aggressively on that as well.
    Senator Gillibrand. If I have any minutes left, I just want 
an update on PFAS. I know you know about the Norlite Facility 
in Cohoes. We learned that between 2018 and 2019, 2.4 million 
pounds of toxic firefighting foam was sent by the Department of 
Defense to Norlite to be destroyed by incineration.
    Senator Barrasso. Senator Gillibrand, I am going to ask him 
to respond in writing to this, because you are a couple of 
minutes over, and we have a couple more Senators who are 
waiting to go.
    Senator Gillibrand. OK, thank you. I will send these 
questions.
    Mr. Wheeler. We are working with the State agency hand in 
hand.
    Senator Gillibrand. Thank you.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Markey, there is a lot of interest in this hearing. 
You are actually the 17th member to engage at this point. I 
know you have been very patiently waiting. So Senator Markey, 
it is your turn.
    Senator Markey. [Indiscernible] have borne some of the 
worst burdens of the coronavirus. They are dying and becoming 
ill at a disproportionately higher rate. Emerging research has 
linked higher rates of coronavirus to higher rates of air 
pollution.
    In Massachusetts, I have seen that first hand in 
communities like Chelsea. Chelsea is an industrial hub of 
Boston and a vibrant community of working Latinx immigrants. It 
has also some of the highest asthma rates in the State, in the 
country. It is the hardest hit community in Massachusetts, with 
a rate of coronavirus infection that is more than five times 
the State-wide average.
    Despite this clear connection between air pollution and 
higher rates of coronavirus infection and death, the Trump 
administration is waging a full out assault on air quality 
standards during this respiratory pandemic. Since the beginning 
of March alone, you have proposed or finalized eight different 
rules and guidance documents that would increase air pollution, 
just since the start of this pandemic. Eight different rule 
changes.
    You rolled back the Clean Car standards, which the 
Environmental Defense Fund estimates will result in as many as 
18,500 American deaths by 2050.
    You decided not to update the National Ambient Air Quality 
Standards, which your own EPA scientists found could mean that 
12,500 more Americans die each and every year.
    You undermined the Mercury and Air Toxics Standards, Power 
Plant Emissions Standards, that the EPA itself estimates save 
11,000 American lives every single year.
    Mr. Wheeler, we are in the middle of a health crisis 
attacking people's lungs. Your agency is supposed to be the air 
quality fire department, but instead, you are throwing gasoline 
on a burning building, knowing that breathing bad air can make 
the impacts of the coronavirus worse, which I have seen first 
hand in communities like Chelsea.
    Do you regret taking these eight different actions during 
the pandemic to make air quality worse? Do you regret doing 
that?
    Mr. Wheeler. First of all, those regulations do not make 
air quality worse. CAFE will improve air quality. We will be 
reducing the CO<INF>2</INF> emissions by 1.5 percent per year 
between now and 2026.
    The NAAQS regulation, we are maintaining the Obama NAAQS PM 
recommendation. At this point, it is out for public comment. We 
are taking comment on that, so we have not made a final 
decision. But we took the advice of our Clean Air Science 
Advisory Committee, and the career staff that you referenced, 
the career staff were divided.
    We had multiple recommendations on that, but the CASAC 
panel specifically recommended that we maintain the Obama 
standard, and under the Mercury--the Mercury standard does not 
allow any increase in mercury emissions, so the premise there 
is off. As far as the studies----
    Senator Markey. The premise is not off, Mr. Wheeler. You 
should be ashamed of yourself; your agency should be ashamed of 
itself. Your job is to protect the public health, and you are 
taking actions that will make this crisis worse.
    You should apologize to the residents of Chelsea, of 
Brockton, of Lawrence, of Revere, and all of the communities 
across this country that are more exposed to this consequence. 
You should apologize to Americans that you have taken these 
actions during the pandemic that will only make the crisis 
worse.
    Mr. Wheeler, yes or no. Yes or no, Mr. Wheeler, black and 
brown communities are more likely to breathe dirtier air than 
white communities?
    Mr. Wheeler. That is--there are certainly some 
environmental justice communities around the country where the 
air quality is much worse than other areas, but there are also 
air quality problems in other communities that are not brown or 
black. I think every American, regardless of where they live in 
this country, deserves to breathe clean air and drink clean 
water, which is why we are working with communities of all 
sizes across the country.
    All six criteria air pollutants under the Trump 
administration have been decreased over the last 3 years, and 
we continue to work to decrease air pollution across the board. 
We have a very strong record on decreasing air emissions, air 
pollution, and the air today is healthier than what we found it 
3 years ago.
    Senator Markey. Well, shame on you, Mr. Administrator. You 
should be apologizing to people of color in our country for 
what are doing. Shame on you. You need to apologize. You should 
do so immediately. Every American is being asked to work 
together to help our communities get through this crisis, but 
you are taking actions that are likely to harm the most 
vulnerable amongst us.
    Your decisions will make this pandemic worse. This is 
unconscionable. History will remember you for the environmental 
injustice you have perpetrated in the name of the EPA. You are 
turning the EPA into Every Polluter's Ally, and those polluters 
are harming the health of the most vulnerable people in our 
country right now, as their lungs are being attacked by 
coronavirus.
    So shame on you, and the EPA is not doing the job which it 
is legally required to do.
    Mr. Wheeler. Sir, your facts are not correct. The air 
quality is cleaner than it was [indiscernible] years ago.
    Senator Barrasso. The Senator's time has expired.
    Thank you very much, Senator Markey.
    I would point out that the United States is a world leader 
is reducing emissions of fine particulate matter, also known as 
PM 2.5. The Environmental Health Journal published a study 
entitled Implementing the U.S. Air Quality Standard for PM 2.5 
Worldwide Can Prevent Millions of Premature Deaths per Year. A 
recent study found that the U.S. reduced its annual particulate 
matter 2.5 levels by 39 percent from 2000 until the year 2018. 
I ask unanimous consent to enter this recent report in the 
record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. At this point, I would like to turn to 
Senator Whitehouse. We have about 4 minutes remaining.
    We were going to close at noon, but I would like to turn to 
Senator Whitehouse.
    I know you have a couple of additional questions.
    Senator Whitehouse. Thank you very much, Chairman.
    Administrator Wheeler, to follow up on our questions about 
Marathon Petroleum meddling in the fuel efficiency rules, I 
will settle for a QFR, but I would also like to ask about how 
your lawyers are engaging with Marathon Petroleum lawyers in 
the context of the litigation between the 22 States and the 
Trump administration over the State fuel efficiency standards. 
I assume right now, you have no information on that, so I will 
make that a question for the record, if that is OK.
    Mr. Wheeler. I have no information on that, sir.
    Senator Whitehouse. OK. I will ask you to look into it.
    With respect to the so called Secret Science Rule, I would 
like to share a little bit of history that we have put 
together, if you don't mind, I will read for a minute from 
something my office put together.
    In 1996, Christopher Horner, an R.J. Reynolds lobbyist, 
acknowledged that R.J. Reynolds had virtually no chance of 
stopping a second hand smoke regulation unless the company was 
able to exercise what he called behind the scenes leadership in 
constructing what he called explicit procedural hurdles for EPA 
to follow and ensue in scientific reports. That original 
proposal tracks very closely your Secret Science proposal.
    In 1997, a Philip Morris memo listed the American Petroleum 
Institute and a Koch backed fund group as supporting that 
initiative. In 1998, the lobbying firm working for the tobacco 
industry branded this initiative the so called Secret Science 
Rule, the same term Scott Pruitt used when he rolled the 
program out in April 2018.
    The Philip Morris front group, the Advancement of Sound 
Science Coalition, advanced this initiative through the 1990s 
with fossil fuel company donors, including Amoco, Chevron, 
ExxonMobil, and Occidental Petroleum. This group was run by 
Steve Milloy, who was on Philip Morris's retainer through 2005 
and then worked in a number of front groups funded by the 
Kochs, ExxonMobil, and Shell, including serving as director of 
external policy and strategy of Murray Energy. Both Milloy and 
Christopher Horner worked in President Trump's transition team 
at EPA.
    So, Milloy attended Scott Pruitt's announcement of the 
Secret Science Proposal, and declared that he had been working 
on advancing it for 20 years.
    When you consider the rather sordid history of this 
proposal and the mischievous motivations of the people behind 
it, I look at it with a lot of skepticism, and I particularly 
worry because what is supposedly secret in all of this is 
people's individual health data, which obviously we want to 
keep secret, private. It doesn't mean you can't do science off 
it, but you don't want because science is done on it, everybody 
to lose the protection of their personal health records.
    So here is the problem. As we are trying to regulate COVID 
and come up with safety regulations to help with this pandemic, 
we are going to have to build regulations based on people's 
health records.
    Haven't you created something that will hobble our ability 
to respond to the coronavirus crisis by attacking science that 
is based on health records, unless you are willing to throw 
individual health records into the public in ways that 
Americans would not tolerate?
    Mr. Wheeler. Senator, as you usually do, you packed a lot 
of information into your question. Let me see if I can try to 
answer the points that you raised.
    First of all, I was not aware of the link to the tobacco 
lobbying in the 1990s. It is my understanding, and this 
regulation was originally proposed before I joined the agency 
in 2018, but it is my understanding that a lot of the original 
regulation proposal was based off of Congressman Lamar Smith's 
legislation that he introduced, I believe a couple of different 
Congresses here in the last 10 years or so.
    We received a lot of comments on the Science Transparency, 
which is the actual name of the regulation, Science 
Transparency Regulation. We received, I want to say, close to a 
million comments.
    When we went back out again at my direction to re-propose 
and take additional comments, because we want to make sure we 
get this right, and so we put out another notice and comment 
for this regulation. And we will, my goal is to get this right 
at the end of the day, but there are a number of safeguards in 
this.
    The Administrator of the agency, and that is any 
Administrator in the future as well, can allow any study to be 
used, even if the information is withheld, the data is 
withheld. But as far as the personal information, the FDA works 
with science and research all the time where they mask the 
personal identification data of the subjects of the science or 
research, and we can do that at EPA as well. We can follow the 
FDA's lead on how they mask the individual people that are 
referenced in these scientific reports.
    But when I started working at EPA in 1991, I worked on the 
Community Right to Know Act implementing the TRI and the 
Pollution Prevention Act across the TSCA and TRI world. I 
fundamentally believe the more information you put out to the 
American public, the more transparent we are with the basis for 
our regulations, the more acceptance there will be with our 
regulations, and the better understood our regulations will be.
    So that is what is guiding me, is to try to get as much 
information out to the public. This is also why we went forward 
with our Guidance Document Proposal which we just issued this 
week to make sure that all of our guidance documents are put 
out there for the public to see. I believe in transparency, and 
that is why [indiscernible].
    Senator Whitehouse. [Indiscernible] and that, of course, is 
a cynical industry ploy to prevent science from getting into 
the regulatory domain by playing on the desire for privacy 
about their own health records on the part of individual 
Americans. And I hope you negotiate that balance well, because 
I think that there is a very cynical play here by big interests 
who simply don't want the public to have public health science, 
because it will reveal the dangers of their products or 
emissions.
    So they have put Americans into the middle, the privacy of 
American health records into the middle as a leverage point to 
try to protect their own pollution.
    Mr. Wheeler. My goal is to----
    Senator Barrasso. Senator, your time has expired. We have 
another member who has arrived for his first round of 
questioning, so I want to turn at this point to Senator 
Sullivan.
    Senator Whitehouse. Thank you, Chairman.
    Senator Barrasso. Thank you.
    First of all, I think the EPA should be praised for its 
efforts to protect the environment while cutting ill conceived 
and duplicative regulations, over-regulation that stymies 
economic activity and worsens public health. My staff has 
issued a report in 2012 cataloguing the links between 
regulatory overreach worsening public health.
    I ask unanimous consent to enter into the record Red Tape 
Making Americans Sick into the record.
    Without objection, that will be submitted.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman, and I hope my 
good friend Senator Whitehouse is still watching, because I do 
want to compliment him, and I want to compliment you, Mr. 
Administrator.
    I happen to think you are doing a great job, particularly 
relative to some of your predecessors in the Obama 
administration who were, in my view, lawless public servants 
who really, really, really hurt my State, and never listened to 
my State about anything. And trust me, we know more about the 
environment, we want to protect our environment way more than 
Gina McCarthy or any of these other folks did, and I just 
appreciate your work.
    First again, what Senator Whitehouse, your work on the 
ocean cleanup. It is great to see that you, the President, the 
U.S. trade rep have all made this a high priority. We are going 
to continue to press it.
    Senator Whitehouse's and my legislation, the Save Our Seas 
2.0, which CRS told us we could call the most comprehensive 
ocean cleanup legislation ever to come out of Congress, we 
checked with the Congressional Research Service. So, that 
passed the Senate unanimously in January. We are trying to get 
it moved through the House.
    So can I get your commitment--I am really glad to see you 
highlighted it in your report, but can I get your commitment to 
help us move that, get it signed into law, put it on the 
President's desk, not too long? And if you are over on the 
House, please encourage them to pass it too? I think they are 
very motivated to do it, but can I get your commitment on that, 
Mr. Administrator?
    Mr. Wheeler. You have my commitment to work with you on the 
issues. I have to get any, as far as--I am not sure if OMB has 
be issued a statement on the legislation or not. I can't get 
ahead of the White House on endorsing legislation.
    Senator Sullivan. Well, you guys help draft the 
legislation, so hopefully you are good to go with it. Good.
    Take a look, I think OMB will be fine with it. We did work 
with the Administration on this quite a lot.
    One of the things that kind of, it is interesting. People 
always talk about science. Again, my colleagues on the other 
side, I work well with them, a lot of them are my good friends.
    But you know, they trot out science. The word science, 
sometimes, there is occasional--I mean, we had a great example 
in Alaska during the Obama administration. The science of the 
Federal agencies came and said the National Petroleum Reserve 
of Alaska had no more oil in it. Really? I was the DNR 
Commissioner at the time in Alaska.
    Of course, we knew that was a bunch of bunk science. It was 
totally politicized. We were, until this pandemic, having one 
of the biggest booms in the National Petroleum Reserve of 
Alaska ever, because there is so much natural resources.
    So when I hear the science thing from the other side, I get 
a little skeptical how much the Obama guys politicized science, 
certainly in my State, to try to shut down resource development 
and kill the jobs in my State that are so critical to my 
economy, but also the U.S. economy.
    Mr. Administrator, I do want to talk about an issue that I 
highlighted in Alaska on your visit, and again, thanks for 
coming. We welcome you to come back again.
    In the 2016 WIN Act, I had one of my first bills, actually, 
got signed into law under President Obama.
    And this Committee, we had a new program that was focused 
on small and disadvantaged community water systems. Now, as you 
know, in Alaska, we have over 30 communities that have no 
running water or flush toilets, so think about that, America, 
30 communities. Thousands of patriotic Americans.
    These are some of the people--you go to these communities 
in rural Alaska, every person there, every guy there is a 
veteran, right? The most patriotic place you have ever been. 
And yet, they can't even wash their hands.
    The CDC says, wash your hands frequently. They don't have 
running water. American citizens. It is a scandal. It drives me 
crazy.
    So this program was meant to address this. I appreciated 
you seeing some of the first hand challenges.
    Unfortunately, as we discussed, when the EPA implemented 
this program last year, I think it failed to fully understand 
the congressional intent, which was very clear, which was this 
is meant to focus on communities that actually don't have water 
and sewer, and unfortunately, my State has a lot of these 
communities.
    So, can I get your commitment, I know I got it in Alaska, 
but I would like to get it in this hearing, to again, work with 
my communities, align the implementation of this legislation 
with Congress's original intent to make sure those resources, 
which by the way, you may have seen in the bill we marked up 
just last week, we have additional resources in this regard for 
these kind of disadvantaged communities, that you can really 
help us focus on that, on the implementation of that 
legislation?
    Mr. Wheeler. Absolutely, and it is my understanding that my 
staff have been working with your staff, and we are revamping 
that program to mirror the congressional intent behind it.
    Senator Sullivan. Great. Well, I appreciate that 
commitment.
    Mr. Chairman, is it OK if I ask one more question?
    Senator Barrasso. Please.
    Senator Sullivan. So, I also want to commend you, Mr. 
Administrator, what the Chairman just said, the ability to 
actually get rid of excessive regulations, and yet continue to 
keep our air and water clean. We have very pristine air and 
water in our great State, some of the most pristine, beautiful 
environment in the world. But as you mentioned, you can do 
both. I think what you guys are demonstrating that.
    I really think it is important when you cite these 
statistics on the progress we have made on pollutants, 
particularly 50 years of the EPA in existence, how much 
progress has been made. Because when you read the national 
media, it always sounds like it is a disaster in the 
environment.
    And yet, as you have highlighted, we are actually making 
very significant progress. Again, Democrats, Republicans, 
people need to know that, and whether it is greenhouse gas 
emissions or lead or particulates.
    Just two quick final questions. We did that round table in 
Fairbanks on the PM 2.5 issue. I would like to get an update 
from you on that, if you have that working with my community. 
It is a really, really important issue.
    And then, continuing the work that we need from the EPA on 
this big issue of wetlands. The reason I raise that, is it is, 
as you know, Mr. Administrator, Alaska is currently home to 63 
percent of the Nation's jurisdictional waters and 65 percent of 
the Nation's wetlands. One State.
    When the EPA comes and tries to regulate everything like 
they did during the Obama administration, it just shuts down 
the entire State, because we take the gigantic burden for the 
whole country on these issues.
    I was pleased that you worked on the WOTUS Rule, which 
again, was a usurpation of Congress's authority under the Obama 
administration.
    But can I get your commitment to continue to work with my 
State on innovative ways to address these mitigation issues 
that are unfairly burdened, the one State in the Nation that 
has so much of the Nation's wetlands? Yet, there is very little 
recognition of that, and I think you are starting to do that. 
But innovative ways to work on mitigation that take into 
account one State is really essentially carrying the load for 
much of the country on this. So those two questions.
    Mr. Wheeler. Absolutely, sir. On your first question, we 
continue to work with your community on the PM 2.5, and we will 
continue to do that. We want to make sure that Alaskans have 
clean air, but it also doesn't disproportionately impact your 
industry and the problems that you have with the unique air 
bowl, you basically have there in that community.
    On the WOTUS, Waters of the U.S., our replacement for that, 
you know, for the first time ever in drafting a national 
wetlands regulations, we acknowledged the important role of the 
States. Just because a Water of the United States is not a 
water--just because an important water body or important 
wetland is not a Water of the United States, doesn't mean it is 
not already protected under different State rules.
    So to have the EPA, I believe it is just a sea change, if 
you will pardon the metaphor, in the way we are working with 
the States, to acknowledge the important role that the States 
have in protecting their own water resources. The difference 
that Congress, you know, in the original Clean Water Act, as 
far as navigable waters, and has, of course, been expanded over 
the years by the Supreme Court, which is why we crafted our 
replacement rule this year, the Water Protection Rule, to 
ensure that we are following the Supreme Court cases, as well 
as the intent behind the Clean Water Act.
    But we are, for the first time, I believe, recognizing the 
important partnership that we have with the States and local 
communities, but primarily States and tribes on protecting 
water resources around the country.
    Senator Sullivan. Great. I will have additional questions 
for the record.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Sullivan.
    At this point, there are no more members asking questions. 
I do ask unanimous consent to enter materials from the American 
Farm Bureau Federation, from the Waters Advocacy Coalition, 
from the Basin Electric Power Cooperative, and the Hearth, 
Patio, and Barbeque Association for today's hearings, and 
without objection, we will do that.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Barrasso. I would also point out, in the front page 
this morning of the Washington Post, and you may not have seen 
it yet, Administrator Wheeler----
    Mr. Wheeler. No, I haven't.
    Senator Barrasso. Emissions plunged 17 percent, an 
unprecedented decline.
    So when I hear the Democrats here claiming the issue of 
emissions causing deaths related to coronavirus, emissions are 
specifically down.
    Senator Sullivan, you wanted to make a comment on that?
    Senator Sullivan. Yes, thank you Mr. Chairman, recognizing 
that there are no more of my colleagues waiting, I did have 
just one final question, Mr. Administrator.
    It was an innovative idea that came up, and again, relating 
to mitigation and stuff in Alaska. As you know, we have Alaska 
Native Corporation lands that were given to the Native people 
by the Congress, 44 million acres. A lot of that land was 
actually contaminated before it was received, and the cleanup 
costs are enormous, because some of it is very contaminated.
    These are the kinds of issues that I want to be able to 
continue to discuss with your office on maybe looking at 
wetland mitigation, ways to say, all right, if people are 
helping clean up those lands, that that can be an offset, not 
just kind of a one for one offset as it relates normally in the 
Clean Water Act.
    Because that is something that I would like to get your 
commitment to continue to look at those kind of innovative 
solutions, particularly for my State, which, as I mentioned, 
has so much of the country's wetlands and is obviously a big 
focus of this.
    Mr. Wheeler. Absolutely, and I believe the last meeting 
that I had when I was in Alaska was with some tribal leaders to 
talk specifically about that issue.
    So that is something that I hope we have made some progress 
since I was there. I will go back and check with my staff to 
make sure that we are making progress. That is very important, 
and it cuts across the board in a number of areas, not just for 
the lands that they took possession of from the Federal 
Government, but also, if you look at abandoned mines across the 
country.
    I know Senator Gardner has very important Good Samaritan 
legislation that would go a long way to cleaning up a lot of 
these sites that we need to get cleaned up around the country.
    Senator Sullivan. Great. Thank you.
    Thank you again, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    The other issue, Administrator Wheeler, is on the USA Today 
coronavirus pandemic page. Today, the headline, Coronavirus has 
led to a 17 percent drop in carbon emissions. So again, the 
comments that we were hearing from some of our colleagues on 
the other side of the aisle on issues of emissions and a 
correlation with coronavirus, emissions are down significantly 
as a result of the diminished amount of commerce that is being 
done.
    Mr. Wheeler. Senator, could you indulge me for just 2 more 
minutes, I would like to praise the career EPA staff on our 
disinfectants.
    Senator Barrasso. Yes, please.
    Mr. Wheeler. They have, since March 6th, approved over 400 
disinfectants that can be used by the American public to clean 
their homes, offices, factories--exactly. We have it available 
on a searchable data base at epa.gov.
    We also created an app so that when you are out shopping, 
and you are trying to purchase disinfectants, to make sure it 
is important that people buy a disinfectant that is actually 
authorized by EPA to be effective against the coronavirus.
    I don't want people to buy a product that is not effective 
against the coronavirus. It is very important for the health 
and safety of all of our families across the country. And our 
EPA scientists have been working 7 days a week around the clock 
to approve more disinfectants, and they have done an 
outstanding job in getting these approved.
    Senator Barrasso. Thank you very much. I appreciate all the 
good work that is being done by the EPA and your dedicated 
staff.
    You will notice in this room, every member has disinfectant 
available to them at every seat, we are distanced from 6 feet, 
we all have our masks that we wore, once we are down here at 
the questioning, with the distance of taking them off.
    But I do want to thank you, and thank all of you for being 
here today with us.
    Thank you for your time, thank you for your testimony.
    The hearing is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                                 <all>
</pre></body></html>
